<html>
<title> - HEARING ON AMTRAK REAUTHORIZATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]






                         AMTRAK REAUTHORIZATION

=======================================================================

                               (110-128)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

             RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 14, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure







                  U.S. GOVERNMENT PRINTING OFFICE
42-439                    WASHINGTON : 2008
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 
Fax: (202) 512-2250  Mail: Stop IDCC, Washington, DC 20402-0001











             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ARCURI, New York          CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               ROBERT E. LATTA, Ohio
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey

                                  (ii)










     SUBCOMMITTEE ON RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                   CORRINE BROWN, Florida Chairwoman

JERROLD NADLER, New York             BILL SHUSTER, Pennylvania
LEONARD L. BOSWELL, Iowa             THOMAS E. PETRI, Wisconsin
GRACE F. NAPOLITANO, California      WAYNE T. GILCHREST, Maryland
NICK LAMPSON, Texas                  STEVEN C. LaTOURETTE, Ohio
ZACHARY T. SPACE, Ohio, Vice Chair   JERRY MORAN, Kansas
BRUCE L. BRALEY, Iowa                GARY G. MILLER, California
TIMOTHY J. WALZ, Minnesota           HENRY E. BROWN, Jr., South 
NICK J. RAHALL II, West Virginia     Carolina
PETER A. DeFAZIO, Oregon             TIMOTHY V. JOHNSON, Illinois
JERRY F. COSTELLO, Illinois          TODD RUSSELL PLATTS, Pennsylvania
EDDIE BERNICE JOHNSON, Texas         SAM GRAVES, Missouri
ELIJAH E. CUMMINGS, Maryland         JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            LYNN A. WESTMORELND, Georgia
ALBIO SIRES, New Jersey              JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (ex officio)
  (ex officio)

                                 (iii)











                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Busalacchi, Frank, Secretary, Wisconsin Department of 
  Transportation.................................................     9
Carson, Andre, a Representative in Congress from the State of 
  Indiana........................................................     7
Corbett, Kevin, Vice President, DMJM Harris-AECOM................     9
Dodd, Jed, General Chairman, Brotherhood of Maintenance of Way 
  Employes.......................................................     9
Kummant, Alexander, President & CEO, Amtrak......................     9
Wytkind, Edward, President, Transportation Trades Department, 
  AFL-CIO........................................................     9

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Braley, Hon. Bruce L., of Iowa...................................    45
Oberstar, Hon. James L., of Minnesota............................    48

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Busalacchi, Frank J..............................................    53
Corbett, Kevin...................................................    62
Dodd, Jed........................................................    65
Kummant, Alex....................................................    70
Wytkind, Edward..................................................    76

                        ADDITIONS TO THE RECORD

American Public Transportation Association, William W. Millar, 
  President, written statement...................................    82


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
                   HEARING ON AMTRAK REAUTHORIZATION

                              ----------                              


                        Wednesday, May 14, 2008

                   House of Representatives
    Committee on Transportation and Infrastructure,
       Subcommittee on Railroads, Pipelines, and Hazardous 
                                                 Materials,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Corrine 
Brown [Chairwoman of the Subcommittee] presiding.
    Ms. Brown of Florida. Would the Subcommittee on Railroads, 
Pipelines, and Hazardous Materials come to order?
    Good morning. The Subcommittee meeting today is a hearing 
on Amtrak reauthorization. Amtrak was last authorized in 
Congress in 1997. Fifty years ago, President Eisenhower created 
the national highway system, which changed the way we travel in 
this Country. Today, we need to do the same thing with 
passenger rail, to make the level of investment necessary for 
it to become even more successful for the 21st century. That is 
why I am so excited about H.R. 6003, the Passenger Rail 
Investment and Improvement Act, which was recently introduced 
by Chairman Oberstar, Ranking Member Mica, Subcommittee Ranking 
Member Shuster, and myself. It provides $2 billion per year for 
capital and operational grants, $500 million per year for 
developing State passenger corridors, $345 million per year to 
pay down debt, $345 million per year for high-speed rail 
projects, $60 million to start work on constructing a new 
tunnel through Baltimore, and it requires a plan for restoring 
service to the Sunset, limited from New Orleans to Sanford, 
Florida, which is in my district, Mr. Mica's also.
    Amtrak is extremely valuable to our Country. It takes cars 
off our already congested highways, it reduces congestion in 
the sky, and it is better for the environment. In many areas of 
the Country, Amtrak is the only mode of transportation 
available. Let me repeat that. In many areas of our Country, 
Amtrak is the only mode of transportation available. They have 
shown major increases in ridership, as ridership has increased 
in eight of the nine last year and reached a record level of 
25.8 million passengers this year. And with the cost of gas 
potentially rising $4.00, $5.00, $6.00 a gallon, there will be 
even more riders lining up for Amtrak.
    Unfortunately, for many years Amtrak has been given just 
enough money to limp along, never given the necessary funding 
to make serious improvements in the system. The high voltage 
electric system is over 70 years old. Sixty-five percent of the 
bridges were built in the 1920s, and several tunnels that 
trains travel through every day were built in the 1800s.
    In 2005, Amtrak conducted a comprehensive review of the 
capital needs, and because of the request of Congress. The 
review determined that Amtrak should invest $4.2 billion to 
bring the infrastructure to a state of good repair. Today, with 
the backlog of major bridges and tunnel work, the necessary 
investment capital has approached an estimated $6 billion.
    As other countries continue to invest tens of billions of 
dollars each year to improve their passenger rail systems, we 
have fallen further and further behind in our deferring the 
much needed improvements to our system. We must find ways to 
speed up Amtrak backlogs of repair work and bring its assets to 
a state of good repair so that Amtrak can concentrate on 
increasing capacity, increasing speed, developing new 
facilities, and planning for the future. These major 
infrastructure improvements are also necessary to improve the 
safety and security of the system and its passengers and 
workers.
    Amtrak has and will continue to play a critical role in 
evacuation and transporting citizens during national 
emergencies. Unfortunately, it is also a prime target for those 
who wish to harm us, and we must provide resources to make the 
system less vulnerable.
    I am looking forward to working with my colleagues in the 
House and Senate to pass this legislation. The United States 
used to have a strong passenger rail service. Now, we are the 
caboose. And they don't even have cabooses any more. The 
American people deserve better, and I believe that the Amtrak 
reauthorization bill will go a long way to bring the United 
States to its rightful place as the world's leader in passenger 
rail.
    With that, I want to welcome today's panelists and thank 
you for joining us. I look forward to hearing your testimony.
    Before I yield to Mr. Shuster, I ask that the Members be 
given 14 days to revise and extend their remarks, and to permit 
the submission of additional statements and material by Members 
and witnesses. Without objection, so ordered.
    I yield to Mr. Shuster for his opening remarks.
    Mr. Shuster. Thank you, Madam Chairwoman.
    Welcome to those who are going to be testifying today. I 
have to give you notice up front, I have a markup going on in 
Armed Services, so I will probably be in and out of here this 
morning. But that doesn't diminish my interest at all in what 
the hearing is about today.
    Last week, I joined with our leader, Mr. Mica, and Chairman 
Oberstar and Chairwoman Brown in co-sponsoring H.R. 6003, which 
reauthorizes and reforms Amtrak. Amtrak has not been 
reauthorized since 1997 and there has certainly been a lot of 
change occurring in this Nation in transportation since then.
    In 1997, the average gas price was about $1.27, and today 
we are moving up towards $4.00 a gallon. We thought highway 
traffic was bad in the late 1990s, but I don't think we really 
envisioned the level of congestion that exists out there today 
on the roadways. And the same could be said of the airlines; 
delays have increased significantly since 1997 and there 
doesn't appear to be any relief in sight. One way to address 
this congestion is by expanding our passenger rail system, 
especially high-speed rail.
    Our Amtrak reauthorization bill directs the Department of 
Transportation to solicit high-speed rail proposals for the 
Northeast Corridor and other lines around the U.S., which I 
think is one of the highlights of this reauthorization bill. 
Companion bill H.R. 6004, also known as RIDE-21, which was 
introduced in the previous Congress, will provide $24 billion 
in bond funding to begin construction of these high-speed rail 
projects.
    But we cannot focus just on passenger rail. Amtrak trains, 
as we all know, operate on our Nation's freight tracks, and 
these lines have become also increasingly congested over the 
past five years. That is why I also have co-sponsored H.R. 
2116, the Freight Rail Infrastructure Capacity Expansion Act. 
This legislation promotes investment in new rail capacity which 
will help not only shippers, but rail passengers at the same 
time.
    Madam Chairwoman, I am looking forward to our hearing this 
morning and, again, excuse me when I have to depart for this 
other markup. But I am sure I will be in and out, as I said. 
Thank you very much and I yield back.
    Ms. Brown of Florida. Thank you.
    Now, Mr. Mica.
    Mr. Mica. Thank you. I am pleased to join Chairman Brown, 
Chairman Oberstar, Mr. Shuster, our Ranking Member, in support 
Amtrak reauthorization. I know several people in the audience 
just fell over and croaked, but we did reach what I consider an 
historic agreement. What we did was partner our interest in 
moving passenger rail service forward in the United States. 
What we will have is authorization of funding and projects for 
Amtrak in a bipartisan fashion from the House for the first 
time, and incorporated in that is, I think, again an historic 
proposal to advance high-speed rail.
    One of the things that I have advocated is development of 
the Northeast Corridor, at least on a preliminary basis, and 
this bill contains that provision. It provides for the 
Department of Transportation to take proposals from the private 
sector to develop, finance, construct, and operate a high-speed 
rail corridor initially from Washington to New York. We chose 
that because Amtrak owns that entire corridor 100 percent. They 
own most of the track and right-of-way above New York to 
Boston, but not all of it. However, we do not preclude other 
proposals from coming forward to DOT in corridors that make 
sense for high-speed rail.
    The only caveat we have on the Washington-New York service 
is that it be door-to-door in two hours. That would 
revolutionize transportation, I believe, in the Northeast 
Corridor. People would be able to go to Union Station and get 
to downtown New York in less than two hours. The dramatic 
impact on congestion in that corridor, just for aviation alone, 
as you may know, in excess of 70 percent of the delays for our 
entire system begin in New York City air space area and that 
northeast region, and this gives people an alternative.
    Obviously, this is going to be a very expensive 
proposition--it will be many billions of dollars--but we think 
that we can have the Federal Government partner with the 
private sector for developing and separating out that traffic. 
I think it will be a dramatic boost to commuter service in that 
corridor because, in separation, you will be able to have 
better commuter service, better utilize the corridor for 
freight service.
    Then, we also request that we look at the development of 
that corridor. I said it is time that we stop sitting our 
assets. When you have a corridor from Washington to New York, 
one of the most densely populated urban areas and most valuable 
real estate, and we are not fully utilizing that asset, we are 
in fact sitting on our assets and not maximizing their 
potential.
    Another beneficiary of this will be labor. Mr. Oberstar and 
Ms. Brown made certain that there are good labor protections 
in. No matter who runs the service, labor will prevail and be a 
partner. The history of Amtrak, as you know, they had some 
28,000 employees when I came to the Committee. They are now 
down to--Mr. Kummant will tell us--what, 17,000? What is it? 
Nineteen thousand. In any event, we think that we can reverse 
that and actually, through increased development of these 
corridors, dramatically increase employment opportunities for 
the future.
    Pretty exciting proposal and pretty dramatic agreement. I 
thank Mr. Oberstar and Ms. Brown for their vision in this. I 
think, if you look at the bill, there are also, as Ms. Brown 
has pointed out, opportunities for public-private partnership 
and expansion of service, partnerships with States and other 
entities, and developing with other partners passenger rail 
service where we need that service and where there is the 
desire for additional partnerships.
    So pretty exciting proposal. I look forward to working with 
the Chair of the full Committee and Ms. Brown getting this 
passed, and working with our Senate partners and educating them 
as to the potential we have for an exciting new era in 
passenger rail service in America.
    Thank you. I yield back.
    Ms. Brown of Florida. Thank you.
    Now our full Committee Chair, Mr. Oberstar.
    Mr. Oberstar. Thank you, Madam Chair.
    Last Thursday there were rumblings and shakings on the 
foundation of Fort Rayburn as four Members of Congress reached 
across the aisle, held hands, and agreed on the Amtrak 
legislation before the Committee this morning. It was a 
transformational moment in the history of passenger rail 
service in America. The first began in the 1850s; the second 
began in 1970, when passenger rail service was all but 
abandoned by the freight rails and converted into Amtrak. This 
will be the third transformational moment. I think we will look 
back in time and say this was a moment when a new birth of 
energy and new opportunity for intercity passenger rail, for 
America to take its place among first world countries in 
passenger rail service. For that, I am most appreciative to Ms. 
Brown, who, like Harry Truman, actually took Amtrak rights, 
advocating two or three years ago for continuation of Amtrak 
service, which was proposed to be bankrupted by the previous 
Administration--current Administration, I should say--and to 
Mr. Mica, who has been a continuing vigorous advocate for high-
speed passenger rail; Mr. Shuster, who has been a continuous 
strong advocate for high-speed intercity passenger rail 
service.
    While there were differences of approach, I can truly say 
that this legislation incorporates the best of the ideas on 
both sides. We all had to make compromises, and that is in the 
best interest of the legislative process. I think we have an 
extraordinary opportunity to move forward with a solid, strong 
bill, substantial funding. Instead of keeping Amtrak on life 
support, as it has been from year to year, instead of a budget 
in which the former Secretary of Transportation said our 
purpose is to bankrupt Amtrak, we have a proposal here that 
will give vigorous life to Amtrak and to invite opportunities 
from the private sector, public-private partnerships, alliances 
of States to participate with each other, with Amtrak in 
combinations we haven't even thought of yet. And the idea here 
is to initiate new energy, new ideas, and new investment 
opportunities from the private sector.
    I will just close by saying a week ago I had the great 
privilege of being invited to address the meeting of the 
European transport ministers in Slovenia, all 27 transport 
ministers, unveiling the second phase of their $350 billion 
surface transportation investment plan for the European Union. 
A cornerstone of that plan was substantial investment in 
additional high-speed passenger intercity rail service for 
Europe, truck routes, passenger car routes, and port 
development, as well as an extraordinary linkage by canal of 
the Atlantic Ocean, English Channel, Sienne River, the Rhine, 
the Danube, to the Black Sea. That is big picture visioning. 
That is serious investment in a vigorous transportation future. 
It is one that we must match and exceed.
    Yes, the price tag of $14 billion plus sounds big, but that 
is what France invested in its TGV to get it launched, and 
Denmark is investing about half as much--little Denmark, 4 
million people investing that much--in upgrading its high-speed 
passenger rail service; and on with other countries. I won't 
recite the litany. This is a transformational moment. Yes, we 
are going to have differences of viewpoints from the various 
witnesses we will hear today, but the cornerstone package we 
have here is a solid beginning on a new future for our 
intercity passenger rail for America.
    Thank you, Madam Chair.
    Ms. Brown of Florida. Thank you, Mr. Chairman.
    Mr. Boswell.
    Mr. Boswell. Thank you, Madam Chairman. Thank you for your 
leadership and bringing this to the point we are at now. I 
would like to relate myself with everything that has been said. 
It is good. I appreciate it very much.
    I would just like to make a point that the outstanding men 
and women, the very professional people that have and will 
devote their working lives to efficient, safe, and faster rail. 
They are folks that we ought to recognize.
    I agree, we have to do something about the east coast, west 
coast, the congestion. The need is so prevalent and we have to 
do it. We have to connect the Country, too. We are the United 
States; we have to connect the Country, and I think there is 
need and demand for doing that. So we all understand and I 
certainly know that our full Committee Chair understands; I 
have heard him speak of it many, many times. The congestion, 
the air congestion, the costs, the delays, consolidations, 
things going on, it is a big concern and we have ways to make 
relief, and I think we are talking about it right here.
    I remember many years ago returning after a four-year 
deployment, if you will, to Europe, and came back and they were 
building and expanding rail. We got here and they were doing 
just the opposite. I said then I think I know who has got it 
wrong. I said I thought so then. Well, now I have to correct 
it; I know so. We really screwed up, and it is going to have to 
be fixed, and we have to get this back on track.
    Lastly, one time not so many years ago I went from Lisbon 
to Brussels. It has been a few years ago. And we went clickety-
clack, slow, rocking along getting out of Portugal and across 
parts of Spain, and all of a sudden we hit France and I 
couldn't believe it. I turned to my wife and I said, my gosh, 
what has happened here? And there was no noise and all of a 
sudden you could tell, I mean, the trees were flying by and we 
found out that we were moving on. And we got into Belgium and 
Germany, and other times I had opportunity to travel and so on.
    So this is way overdue, we know that. I am speaking to the 
choir here. But I just appreciate that finally we are coming to 
grips and we have to do it. We don't really have a choice. It 
is kind of like Chairman Oberstar working on our 
infrastructure, the other part of transportation that is, of 
course, important too, the highways and bridges. We have to do 
it. That is nothing we are going to sit around and talk about, 
we have go do it.
    And we talk about stimulation and I would defer to you, Mr. 
Chairman or Madam Chairman, but I think when we spill a billion 
bucks in transportation, the number of jobs are in the multi-
thousands, it is 47,000--something like that--and they are high 
paying jobs and, guess what, they are not exportable. And we 
are going to have to do it anyway, so let's get on with it.
    Thank you very much for your time. I yield back.
    Ms. Brown of Florida. Mr. Boswell, let me just say that 
recently the Committee took a trip to Spain, and I went from 
Barcelona to Madrid, 300 miles, two hours and a half, and we 
felt nothing. So they have straightened out their system.
    Mrs. Napolitano. Thank you, Madam Chair. I too associate 
myself with the remarks in support of this great 
reauthorization and thank you for holding this hearing.
    To us in California, this is really not only a needed 
investment, but a dramatic, critical investment in our 
infrastructure that is long coming. It creates our new State 
program, which, of course, is desperately needed in California. 
As you know, we have three of the five top busiest rail 
corridors with Pacific Sunliner in the Capitol Corridor in San 
Joaquin Corridors, and those choke points will be hopefully 
alleviated with the investment granted by this bill. It really 
will be very much an incentive for a lot of people to leave 
their cars at home, which is sorely needed in many of the areas 
to improve the environment, and the investment will put people 
to work; and there are so many other things that this will 
create.
    So, again, thank you. I am glad to be part of it, and I 
yield back.
    Ms. Brown of Florida. Thank you.
    Let me just introduce our first panel. Recently elected to 
Congress, Mr. Andre Carson is here to testify today. Mr. Carson 
now serves in the seat held by the former Transportation 
Infrastructure Committee colleague, Congresswoman Julia 
Carlson. I am pleased to have you here with us this morning.
    Recently, I spent a day in your district in Indiana, so I 
welcome you and we await your testimony.

 STATEMENT OF ANDRE CARSON, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF INDIANA

    Mr. Carson. Thank you, Madam Chairwoman. I want to first 
thank Chairwoman Brown and Ranking Member Shuster for holding 
this timely hearing on Amtrak reauthorization. As you know, my 
grandmother was a Member of this distinguished Subcommittee 
and, like her, I hold it and its Members in the highest regard. 
I truly thank you for giving me the opportunity to briefly 
testify today. I also want to inform the Committee that I will 
have to leave after this testimony to attend another hearing on 
Financial Services.
    Madam Chairwoman, as this Country's sole provider of 
regularly scheduled intercity passenger rail service, Amtrak's 
importance and necessity to all Americans is clear. In the face 
of continually rising gas prices, overloaded highways and 
congested airports, many Americans are being forced to make 
difficult financial decisions regarding their modes of travel. 
Amtrak has become an ever more viable transportation option at 
such a time, and continues to be a practical option for many of 
those people searching for an efficient and economic travel 
alternative.
    Amtrak has many hurdles to overcome, the biggest of which 
is her $3.17 billion worth of debt. Although Amtrak has taken 
great steps in reducing this debt, by almost $600 million since 
2002, it still has a long way to go. As a result, it is 
extremely important that Amtrak makes business decisions that 
maximizes her current resources, while maintaining the highest 
quality of services and facilities.
    Madam Chairwoman, the maximization of Amtrak's facilities 
is an issue that particularly hits home with constituents from 
the 7th Congressional District of Indiana. As you know, I have 
the Beach Grove Amtrak maintenance facility located within my 
district, which is the largest Amtrak maintenance facility in 
the Country. I am also proud to say that Chairwoman Brown came 
to this facility personally, and I thank you again for that.
    Approximately 550 experienced employees at this facility 
perform a number of train maintenance, from wheel work to 
painting. A lot of these people have 10 years or more 
experience on the job and really take pride in what they do. 
But, recently, many of these employees at the facility have 
been notified that a lot of the work that they do will be 
transferred to other facilities and that they will have to 
either move or lose their jobs.
    In speaking with many of these employees, I was told that 
in the past there had been repeated attempts to close and move 
this facility. They also mentioned Amtrak has continually 
increased the amount of work being outsourced and that this 
facility has been forced to downscale its entire workforce.
    Madam Chairwoman, I would be the first to understand if 
Amtrak simply did not have enough work to keep this facility 
open. Everyone understands that industries change and, 
therefore, a company's labor needs must be realized. However, 
this is not the case for this facility. Amtrak has a backlog of 
cars waiting to be fixed. As you know, many freight companies 
have locomotives that need maintenance, as well as insourcing 
this work, that would give Amtrak an amazing opportunity to 
grow her profits. If Amtrak could be incentivized to lessen its 
practice of outsourcing and begin to insource more work and 
find viable ways to do maintenance work for freight companies, 
Amtrak would raise her revenue and the facility in the Beach 
Grove would thrive. The Beach Grove facility needs more work, 
and it already has all of the equipment necessary to fix Amtrak 
cars.
    Finally, the Beach Grove is already up and running, with a 
highly experienced and knowledgeable labor force. For example, 
last year the California Department of Labor asked the Beach 
Grove maintenance facility to rebuild two of its damaged 
Superliner cars. After receiving the completed work, the 
California Department of Transportation then wrote a letter to 
Mr. Kummant praising the professionalism and quality of their 
final product.
    Madam Chairwoman, we all want Amtrak to do well and be 
profitable, and I believe the need to incentivize the 
insourcing of their own maintenance work and having the 
opportunity to do maintenance work from rail companies can 
greatly impact Amtrak's profits and aid to ensure its financial 
solvency and give hardworking Americans like those at the Beach 
Grove facility a fair chance to aid in the reinvestment of our 
Nation's infrastructure.
    Madam Chairwoman, I ask unanimous consent that a letter 
from the California Department of Transportation be inserted 
with my testimony for the record. Thank you, ma'am.
    Ms. Brown of Florida. Without objection.
    I appreciate Mr. Carson has taken the opportunity to speak 
on this issue. This is an important issue for his constituents 
and also for the people of this Country.
    My staff have spoken with Amtrak's inspector generals 
regarding the Beach Grove facility. The inspector general has 
told staff that a number of concerns that have been raised with 
the facility have been addressed. However, I would like Mr. 
Carson to please inform me of the outstanding matters needing 
our attention, and I would be happy to follow up with the 
Amtrak IG.
    Thank you very much for your testimony.
    Mr. Oberstar, do you want to----
    Mr. Oberstar. Madam Chair, I would just like to compliment 
Mr. Carson on his advocacy for the Beach Grove facility and 
thank you for taking the time to visit. I did a tour with Ms. 
Carson three, four years ago. I was really overwhelmed with 
what I saw. The level of skill, the ability to take these 
seriously damaged cars--you look at them and say how are they 
ever going to fix them, and then you see the completed product. 
It is an exceptional tribute to their skill, devotion, 
dedication to service, and the Beach Grove facility really 
could do outsourcing for the freight rails in repairing their 
freight cars as a supplemental opportunity for jobs and 
business at Beach Grove. So I join with Ms. Brown in saying we 
will do all we can to help you with that and come to an 
understanding or, as Lyndon Johnson used to say, we will bring 
you together with Amtrak and we will reason together, in the 
words of the prophet Elijah.
    Mr. Carson. Thank you, Mr. Oberstar.
    Ms. Brown of Florida. Thank you.
    Would the next panel please take their seats?
    Evidently, we are not sitting in the order that we are 
supposed to. We have Mr. Kummant and then the Secretary from 
Wisconsin, and then Mr. Ed Wytkind, and then Mr. Jed Dodd. Is 
that right? And Mr. Corbett is last. I am sorry, but that threw 
us off.
    Let me welcome the panel and introduce the second panel.
    Our first witness is Mr. Alexander Kummant, President & CEO 
of Amtrak. Welcome. Our second witness is Mr. Frank Busalacchi, 
Secretary of Wisconsin Department of Transportation; our third 
witness is Mr. Ed Wytkind, President of the Transportation 
Trades Department, AFL-CIO; our fourth witness is Mr. Jed Dodd, 
General Chairman of the Brotherhood of Maintenance of Way 
Employes; and our fifth witness is Mr. Kevin Corbett.
    Let me remind the witnesses that, under our Committee 
rules, oral statements must be limited to five minutes, but the 
entire statement will appear in the record. We will also allow 
the entire panel to testify before questioning the witnesses.
    It is my pleasure to have with us here this morning the 
Chairman of Amtrak, Mr. Kummant, for his testimony. Thank you.

TESTIMONY OF ALEXANDER KUMMANT, PRESIDENT & CEO, AMTRAK; FRANK 
BUSALACCHI, SECRETARY, WISCONSIN DEPARTMENT OF TRANSPORTATION; 
 ED WYTKIND, PRESIDENT, TRANSPORTATION TRADES DEPARTMENT, AFL-
CIO; JED DODD, GENERAL CHAIRMAN, BROTHERHOOD OF MAINTENANCE OF 
 WAY EMPLOYES; AND KEVIN CORBETT, VICE PRESIDENT, DMJM HARRIS-
                             AECOM

    Mr. Kummant. Good morning, Madam Chair, Mr. Shuster, 
distinguished Members of the Committee. Thank you for the 
opportunity to testify today.
    Recently, we celebrated Amtrak's 37th anniversary. We 
opened our doors for business on May 1, 1971, as was referenced 
earlier, and took over the vast majority of the Nation's 
existing intercity rail passenger services from 20 Class I 
carriers. At the time, this was widely viewed as a nice 
farewell gesture to passenger trains, which were not expected 
to survive the decade.
    Today, as you know, we are seeing record numbers of 
Americans choosing Amtrak for its convenience, its comfort, and 
its environmentally friendly qualities. I think we can take a 
little justified pride in the work we have done over the years 
to make sure that the trains keep coming, and it is a tribute 
to the many people who worked for Amtrak over the years and our 
front-line employees who deliver the product every day. For our 
part, we appreciate the strong support we have enjoyed from the 
general public, the Congress, and this Committee.
    I am very pleased that your Committee has decided to 
consider the question of reauthorization for Amtrak, a measure 
that is timely and important; and I will speak directly to the 
bill you have introduced. But, first, I want to make the point 
that a lot has changed since our last reauthorization was 
enacted in 1997. A gallon of unleaded cost about $1.24 in 
October 1997, and it costs almost $4.00 per gallon today. 
Congestion, as was well noted earlier, is increasing and the 
highway infrastructure is showing signs of fatigue.
    I think we all agree that we need a strong national 
transportation policy that recognizes the role rail can play in 
our national life. Our transportation policy needs to evolve, 
and I think it will evolve, and this authorization must 
eventually become a part of an integrated national policy where 
rail will play its meaningful role.
    To that end, I think we need to work harder at using our 
existing resources and infrastructure to make better policy. In 
the last 10 years, State governments have redefined rail 
service: as a congestion mitigator, an engine of development, 
and an environmentally friendly way of providing for travel 
needs on existing networks, and this is an example of a 
creative and successful use of existing resources and 
infrastructure. We need to find transportation solutions that 
will build system connectivity, allow consumers a range of 
relevant choices, and develop the funding streams that will 
allow us to plan, build, and operate our services without the 
turmoil of the annual funding cycle. I am pleased that this 
bill recognizes that need and incorporates, both in spirit and 
intent, measures that will allow us not just to pursue and 
extend successful policies, but to begin the larger national 
debate about the future of transportation in America.
    I would like to touch on a few examples of services we 
think are successful. Amtrak just finished a year of record 
ridership and is on its way to another. There are a number of 
great examples of the kind of growth we want to see. I will 
confine myself to two that are geographically and 
demographically distinct, but that together give us a sense of 
how we hope the system of the future will look.
    The first is our Keystone Corridor between Harrisburg, 
Philadelphia, and New York City. Together with the Pennsylvania 
DOT, we put $145 million into much-needed improvements. This 
allowed us speeds up to 110 miles an hour, and we got more 
frequencies out of the same equipment. We restored electrified 
service in 2006 and our ridership grew by 20 percent in 2007. 
Our growth was so strong that last month a U.S. Airways carrier 
providing service between Harrisburg and La Guardia canceled 
its service on that route because it couldn't compete with 
Amtrak. City center to city center access is a tremendous 
selling point and a natural enhancer of connectivity.
    Our partnership with California has also been a success. We 
have built a network of three major passenger rail corridors. 
Eighty-six percent of the stations in California have some kind 
of intermodal connectivity, and the result has been a very 
strong system built on the range of choices we can offer 
travelers. The Pacific Surfliner between San Luis Obispo, Los 
Angeles, and San Diego is our second largest corridor operation 
after the Northeast Corridor, and the Capitol Corridor between 
San Jose and Sacramento was one of the 10 fastest growing 
corridors on the system last year.
    While our focus will be on corridors, my view is that there 
will always be a place for long distance trains. They provide 
basic transportation to communities that lack transportation 
choices and they will continue to connect corridors. But I 
believe the real opportunity for growth lies in those corridors 
a few hundred miles long that use shared rights-of-way to 
provide people a real transportation service. We have some very 
real challenges and the next few years are going to be 
important if we are going to meet them: in terms of our 
relations with the States, our ability to procure new equipment 
so that we can grow our ridership, and in finding a more 
reliable source of funding so that we can develop and execute 
programs without trying to keep things moving under a 
continuing resolution.
    With that in mind, I will comment on the bill. I think the 
timing is right, the national transportation crisis is upon us, 
as many of you have commented on, and Congress and the Nation 
will have to address it in the next couple of years. I think 
the bill that has been introduced in the House is a strong 
statement of support not just for Amtrak, but for the cause of 
passenger rail service generally. I think the Committee 
recognizes certain basic realities and the bill is a ringing 
endorsement of the need for corridor service. The authorization 
of a Federal-State partnership program is the single most 
important aspect of the bill. The 80-20 matching program will 
do a lot to level the modal playing field and help States to 
pursue passenger rail projects. The investment grants for 
congestion mitigation measures will also benefit many of our 
existing services. The increases in the authorization of 
funding levels are going to be essential if we are to realize 
these visionary proposals. We are seeing inflation in costs of 
fuel, basic materials, and health care expenses, and these will 
directly translate into higher operating and capital costs.
    As I mentioned in our fiscal year 2009 grant request, I do 
not believe Amtrak will be able to comply with all of the 
provisions of the Americans With Disabilities Act by the July 
26, 2010 deadline. Ownership and responsibility questions 
complicate compliance, since we don't own all of the 527 
stations we serve, and in many cases we are not responsible for 
altering parts of the station that we do not own. In addition, 
the question of whether DOT will implement its proposed new 
rules regarding full-length level boarding of trains from rail 
platforms is adding to the delay in achieving compliance.
    I want to close by thanking you for taking up this matter. 
While it is certainly vital for Amtrak, I think Amtrak is vital 
for the Country. I look forward to working with you on a 
collaborative effort to develop our reauthorization, which 
will, I hope, become the first step towards a comprehensive, 
integrated, and balanced national ground transportation policy. 
Thank you very much.
    Ms. Brown of Florida. Yes, sir.
    Mr. Busalacchi. Chairman Oberstar, Chairwoman Brown, 
Ranking Member Shuster, Members of the Committee, my name is 
Frank Busalacchi. I am Secretary of the Wisconsin Department of 
Transportation, Chair of the States for Passenger Rail 
Coalition, and I served on the National Surface Transportation 
Policy and Revenue Study Commission.
    As a Member of the Commission, I was able to share my 
perspective and goal for a new direction in national 
transportation policy, one that includes a Federal-State 
funding partnership for intercity passenger rail, similar to 
the partnerships that exist for highways, transit, and 
aviation.
    The Commission submitted its report to Congress in 2007. 
The report provides a new multi-modal 50-year transportation 
vision for the United States, with recommendations for 
passenger rail expansion based on an 80-20 Federal-State cost 
share program.
    The bills before you today are critically important. H.R. 
6003, the Passenger Rail Investment and Improvement Act of 
2008, does much more than reauthorize Amtrak; it begins the 
process of investing in passenger rail, a mobility option that 
our citizens are choosing in record numbers.
    Since 2002, Amtrak has not had a dependable revenue stream. 
The Administration has shown a lack of leadership on rail 
finance, starving Amtrak each year in its budget bill. Yet, 
people are flocking to trains. Reauthorizing Amtrak will end 
the year-to-year cobbling together of the finances of a major 
corporation. The bill funds State investment in rail, providing 
stable funding for Amtrak and policy provisions to assure its 
expansion and financial accountability. It aligns Federal 
policy with demand at a time when gas prices are approaching 
$4.00 a gallon.
    At a recent campaign stop in Indiana, Senator Barack Obama 
remarked, ``The irony is, with gas prices what they are, we 
should be expanding rail service. We are going to be having a 
lot of conversations this summer about gas prices, and it is a 
perfect time to start talking about why we don't have better 
rail service.''
    H.R. 6004, the Rail Infrastructure Development and 
Expansion Act for the 21st Century, or RIDE-21, provides $12 
billion in Federal tax credit bonds over 10 years, the 
equivalent of 60-40 Federal-State grants for infrastructure and 
equipment on high speed rail lines. For 50 years our Federal 
policy and funding approaches have led to disinvestment in 
passenger rail. H.R. 6003 puts passenger rail on equal footing 
with other transportation modes. Its 80-20 grant program for 
capital investment will help the States implement their 
passenger rail service plans. Despite the Federal Government's 
focus on targeted congestion relief, congestion grows. 
Expanding urban highway capacity is extremely expensive and is 
often difficult to accomplish. Funding for passenger rail gives 
transportation officials another option for solving their 
transportation problems.
    The expansion of intercity passenger rail can help address 
the Nation's global warming challenge. Intercity trains 
generate 60 percent fewer CO2 emissions per passenger mile than 
cars and half the emissions of airplanes. Since 1990, carbon 
dioxide, or CO2, emissions grew 1.2 percent annually in the 
U.S., and the transportation sector contributed to one-third of 
those emissions. The projected population growth will only 
exacerbate this problem.
    As Secretary of the Wisconsin DOT, I know firsthand that 
the public wants more train service. Wisconsin works in 
partnership with Illinois to provide financial support to 
Amtrak's Hiawatha service in the Milwaukee to Chicago corridor. 
Wisconsin has committed over $100 million to improving our rail 
stations and service, and has invested $7 million in the 
Milwaukee to Madison corridor for future rail service.
    'The Federal funding authorized by H.R. 6003 over five 
years will fund Amtrak partnership with States in regional 
corridors, operations in the Northeast Corridor, and long-
distance trains. A new emphasis on Federal-State Amtrak 
partnerships is reflected throughout the bill. Three billion is 
authorized over five years for Amtrak operating grants, 
eliminating the annual uncertainty of whether Amtrak services 
will be cut. H.R. 6003 recognizes the need for new equipment by 
providing capital funds to address equipment shortages on 
Amtrak routes, including State-supported corridors. Funding is 
also provided for compliance with the Americans with 
Disabilities Act at our train stations.
    Most importantly from a State perspective, the bill 
recognizes the need for a Federal-State capital program to 
expand and improve the current Amtrak system. The legislation 
authorizes $2.5 billion in 80-20 Federal-State grants for 
infrastructure and equipment, and another $1.75 billion in 80-
20 grants to authorize high-speed rail corridors. The 80-20 
cost share will finally put Federal investment in passenger 
rail on an equal footing with aviation, highway, and transit 
programs.
    I respectfully ask the Committee to continue its efforts to 
provide a dedicated passenger rail capital program to fund the 
Nation's intercity passenger rail needs. Thank you.
    Mr. Wytkind. Madam Chair, thank you for inviting me to 
appear before you on behalf of the Nation's Transportation 
Unions; to Chairman Oberstar, as always, he is the leader, in 
fact, the conscience of this Congress on transportation issues; 
and to Mr. Shuster and I know Mr. Mica, who has departed the 
hearing room, for their leadership and for allowing us to 
participate in this discussion and debate leading to this 
hearing.
    The debate over Amtrak and the question of how to achieve a 
first-class national passenger rail system is not occurring in 
a vacuum. A collapsed bridge in Minneapolis, failed levies in 
New Orleans, a steam pipe explosion under New York City and so 
many other examples of disaster in our infrastructure and our 
transportation system all drive home the point that our 
Nation's infrastructure is indeed collapsing. Our historic 
failure to invest in a national passenger rail system and this 
Administration's refusal to lead on the subject is a product of 
that national failure.
    Amtrak has never been more vital to our Nation, nor more in 
need of a significant long-term investment plan. Performance, 
ridership, and revenue are all rising. Employee productivity 
has increased dramatically and Americans are riding passenger 
rail at record levels. We need to change the way we look at and 
fund Amtrak. Forcing the carrier to limp from one financial 
crisis to the next with no long-term finance plan is a recipe 
for assured failure. For too long, Amtrak has been known for 
its deferred maintenance, lost expansion opportunities, unmet 
security needs, outdated cars and equipment, and an unfairly 
treated workforce that until recently went eight years without 
general wage increases. American can do better if Congress and 
our Government give Amtrak and its employees the resources they 
need to deliver the world's best passenger rail service. Shut-
down budgets from this Administration and wildly unrealistic 
privatization and contracting out initiatives should be 
scrapped in favor of a long-term multi-year authorization of 
Amtrak that places the company on a glide path to financial 
stability and long-term success.
    I commend the Committee--led, of course, by Mr. Oberstar, 
Ms. Brown, and others--for introducing the Passenger Rail 
Investment Act and, of course, RIDE-21. These bills provide the 
foundation to bring an end to the era of under-funding and 
neglect that has defined America's national Amtrak network for 
too long. H.R. 6003 will provide over $14 billion during the 
next five years. This commitment to Amtrak is indeed historic. 
It is recognition of the deteriorating state of the Nation's 
transportation system and infrastructure, and it makes an 
important downpayment towards reversing four decades of neglect 
of Amtrak at a time that American's want more and better 
transportation choices.
    Funding levels in this bill must be adequate to cover 
Amtrak's obligations in new collective bargaining agreements 
recently agreed to by Amtrak and its union. Paying Amtrak 
workers a fair and reasonable wage constitutes a basic cost of 
doing business, akin to maintaining tracks or paying fuel 
costs. We must also ensure that the back pay awarded to Amtrak 
workers after they went eight years without a wage increase is 
funded at the earliest opportunity between now and spring of 
2009.
    While we understand and appreciate that this bill makes a 
significant multi-year commitment to Amtrak and, indeed, this 
bill is historic, we are concerned with provisions that appear 
to promote privatization of parts of the system. There are 
still those who believe Amtrak could somehow turn a profit. 
Others believe private companies can offer better service by 
cherry-picking the most attractive assets in Amtrak's system 
like the Northeast Corridor.
    The story of British Rail privatization, of course, 
underscores the threats of that model, and, of course, rail 
privatization has hardly been a success generally where it has 
been tried. British passengers during that experiment were 
saddled with increased fair, shoddy maintenance practices, and 
dangerous cost-cutting, including excessive job reductions. 
This resulted in higher accident rates, deteriorated service, 
and coordination problems within a maze--and, indeed, it was a 
maze--of poorly managed providers.
    Amtrak was created in 1970 because Congress recognized that 
private passenger rail was going bankrupt and disappearing 
across the Country. It would be a mistake to ignore this 
history and assume that today private operators will magically 
offer a better way to deliver the service. We are specifically 
opposed to the provision requiring a request for proposals for 
a high-speed route between D.C. and New York City. Obviously, 
Amtrak already operates several routes on this corridor, 
including its highly successful and growing Acela service. 
While this service can and should be improved and expanded, we 
do not understand how the public will benefit by allowing a 
private operator to take over one of the most successful routes 
and prized assets in Amtrak's network. It is unclear how and if 
the winning bidder will be held accountable for the promises 
made in the application.
    Those of us in labor know that this, of course, wouldn't be 
the first time that a private company seeking to win a 
government contract over-promised, but then under-delivered. 
The applicants are required to achieve two-hour express service 
from D.C. to New York. What happens if the winning bidder, in 
all likelihood a foreign corporation, makes promises about 
achieving the two-hour objective but then predictably falls 
short? And what if the Northeast Corridor express service 
requires certain stops to be curtailed or abandoned altogether? 
And if the promises made by private interests are not met, will 
America recreate the British Rail disaster right here in 
America? And will Congress and the Administration face a multi-
billion dollar price tag, as they did in Great Britain, to 
unravel a failed privatization experiment?
    We think these questions deserve an answer. And while we 
understand this to be the intent of the bill, we urge the 
Committee to state explicitly in the legislation that the 
Section 502 RFP process shall not move on to final 
implementation until Congress has expressly authorized it 
through legislation. It also must be assured that any provider 
of rail service is covered as a rail carrier for all applicable 
rail and labor laws, and that the jobs and the rights of 
workers are adequately protected. The transformation of the 
Nation's passenger rail system should not come at the expense 
of important statutory requirements and any worker protection 
such as, for example, railroad retirement, which this Committee 
has championed throughout its history.
    We have spelled out in our testimony our support for very 
important reforms included in this bill, and I won't go into 
those today, including, however, the composition and makeup of 
Amtrak's board and the IG reforms that you have placed in the 
bill. I would just add if the Committee would consider that a 
board seat representing Amtrak's employees should be mandated 
in this legislation.
    I want to again thank Chairman Oberstar, Chairwoman Brown, 
Mr. Shuster, and Mr. Mica for bringing H.R. 6003 forward, 
because we think it is a radical departure from the past. After 
years of shut-down budgets, it provides a capital and 
operational assistance so desperately needed to make Amtrak a 
success. But we ask the Committee and the Congress to embrace 
this new blueprint, but at the same time to reject any ill-
advised privatization measures that we think will undermine 
Amtrak, potentially undermine safety, and harm Amtrak's 
employees.
    We again thank you for the opportunity to testify.
    Ms. Brown of Florida. Thank you.
    Mr. Dodd?
    Mr. Dodd. The Brotherhood of Maintenance of Way Employes 
Division-International Brotherhood of Teamsters (BMWED) thanks 
the Committee for being given the opportunity to present its 
views on the proposed reauthorization of Amtrak as proposed in 
H.R. 6003----
    Ms. Brown of Florida. Excuse me, sir. Would you please 
bring your mic up just a little bit? Thank you.
    Mr. Dodd. Our union is te labor union that represents the 
men and women who build and maintain the railroad track, 
bridges, buildings and overhead catenary system for Amtrak. Our 
members are highly skilled and include heavy equipment 
operators, welders, carpenters, plumbers, foremen, linemen, 
electricians, repairmen, and a host of other crafts. We work 
night and day, seven days a week, performing tough, dangerous 
work in all weather conditions. We build and maintain a complex 
infrastructure so that Amtrak can ensure that their passengers 
can arrive safely and on time to their destinations.
    My name is Jed Dodd, and I was hired into the Maintenance 
of Way Department of Amtrak on the Northeast Corridor as a 
trackman in early 1977. In September 1983, I was elected to the 
position of General Chairman of the Pennsylvania Federation. My 
office is elected by the membership and I have been re-elected 
every four years since 1983. One of my duties as General 
Chairman of the Pennsylvania Federation is to chair the BMWED 
bargaining committee on Amtrak, and I have done this for the 
last 25 years.
    The BMWED supports the core mission of Amtrak: providing 
safe, reliable, and environmentally-friendly intercity 
passenger transportation. Despite Amtrak's uncertain beginning, 
the men and women who worked for Amtrak held the system 
together, to the point that today ridership and revenue levels 
for Amtrak are at its highest in history. The rate of return 
for the investment in Amtrak by the American taxpayer has been 
huge. There is an enormous environmental benefit to intercity 
rail service, as Amtrak's service significantly reduces 
congestion on the highways and in the airports on the Northeast 
Corridor. Our reliance on foreign oil is less because of 
passenger rail service.
    In addition, Amtrak workers are among the most productive 
passenger rail workers in the world. Amtrak covers 78 percent 
of its operating needs at the fare box, as opposed to a 
national average of 47 percent for commuter railroads and a 
national average of 58 percent for heavy transit systems. This 
success story was achieved in the face of, at times, hostility 
from the Executive and Legislative Branches, and what seemed 
like a revolving door of top Amtrak management who, with minor 
exception, have fostered a labor relations climate on Amtrak 
that treats its dedicated workforce like an unwanted annoyance. 
Despite the sometimes annual changes in Amtrak management, the 
workers at Amtrak are the constant that has served America by 
going to work every day and producing one of the finest 
intercity passenger railroads anywhere in the world.
    In the early years, worker safety on Amtrak suffered as 
well. Many good men and women sacrificed their lives working 
for Amtrak to keep intercity rail passenger service available 
to the people of this country. In Union Station, in Washington, 
D.C., there is a plaque that lists the names of 72 men and 
women who have been killed at work while on duty. Our union 
represents about 10 percent of all Amtrak workers. However, 
more than one-third of the names on that list were members of 
our union whose lives had been cut short because they were hit 
by a train, electrocuted on the high voltage wire, or crushed 
to death by the machinery. Next time you are hurrying to catch 
your train at Union Station, please take a moment at this 
plaque and reflect a little on te sacrifices that have been 
made in sweat and blood to ensure that Amtrak is successful. 
Railroading is hard and dangerous work, and no one should ever 
underestimate or denigrate the courage, dedication, and effort 
Amtrak workers expend to ensure this Country's rail passengers 
get to their destination safely and on time.
    The BMWED is delighted that H.R. 6003 contains a multi-year 
reauthorization of appropriations for Amtrak. Amtrak's 
infrastructure on the Northeast Corridor includes tunnels from 
the 19th century and a number of major, movable bridges that 
date from the early 20th century. The renovation of these parts 
of the infrastructure requires a dedicated, multi-year source 
of authorized appropriations in the manner proposed by this 
Committee. We are happy to see this Committee step forward with 
a strong commitment to the long-term success of Amtrak and 
thank Ms. Brown and Mr. Oberstar for their tireless efforts and 
work in support for Amtrak.
    Nevertheless, we are compelled to mention a note of 
caution. BMWED's support for a single, national intercity rail 
passenger carrier in the form of Amtrak should not be 
considered unquestioning support for Amtrak management, and 
especially Amtrak's Labor Relations Department.
    BMWED's support for the operating and capital monies which 
Amtrak claims is sufficient for its needs during the fiscal 
years 2009 through 2013 is conditioned on a commitment that 
Amtrak will come to the bargaining table on January 1st, 2010 
and begin to bargain a fair and equitable extension to our 
collective agreement in good faith. They must abandon their 
style of labor relations which seeks to starve the employees 
into submission. The dedicated employees of Amtrak must never 
again be subject to the type of labor relations policies that 
permit eight years to go by without a reasonable raise. Amtrak 
Labor Relations must not be permitted to interpose a complaint 
that congressionally authorized appropriations are insufficient 
for them to bargain a fair and equitable agreement. We 
respectfully ask this Committee to require such an assurance 
from Amtrak management and specifically its Vice President of 
Labor Relations.
    Finally, we must comment on a portion of H.R. 6003 that 
troubles the BMWED very much. While much of the bill 
demonstrates continued support for Amtrak and a strong support 
for the development of new intercity rail passenger service 
that complements the Amtrak operations; Title V of the bill 
contains a provision that could well be the Trojan horse for 
the demise of Amtrak.
    Section 502 of the proposed legislation makes almost the 
first order of business a command that the Secretary of 
Transportation issue an RFP for the ``financing, design, 
construction and operation of an initial high-speed rail 
system'' between Washington and New York. That relatively 
innocuous phrase is, in BMWED's opinion, an opening to 
privatize Amtrak's operations on the Northeast Corridor. As I 
said earlier, Congress has invested substantial sums in 
rehabilitating the Northeast Corridor and this proposed 
legislation will ensure that Amtrak puts the Corridor in a 
state of good repair. However, all of that investment and hard 
work performed by Amtrak employees will be lost if the corridor 
is handed over to a private operator to cherry pick the assets 
as part of a plan to provide two hour service between 
Washington and New York.
    The BMWED thanks the Committee for the opportunity to share 
its views on this subject.
    Mrs. Napolitano. [Presiding] Thank you, Mr. Dodd.
    Next we have Mr. Kevin Corbett.
    Mr. Corbett. Thank you, Congresswoman Napolitano and 
Ranking Member Shuster and Members of the Subcommittee for 
allowing me to give testimony today.
    My name is Kevin Corbett. I am Vice President of Corporate 
Development at DMJM Harris-AECOM, and a board member of New 
York's Regional Plan Association, a private, independent 
planning group. I am here today representing the Business 
Alliance for Northeast Mobility, a coalition of over 30 
chambers of commerce, civic, and business associations from 
Boston to Washington which have come together to advocate for 
bringing Amtrak's Northeast Corridor back to a state of good 
repair and improving the frequency, speed, and reliability of 
intercity and regional rail service in the Northeast.
    We met with some of you on April 2nd, when the Business 
Alliance came to the Capitol to show our support for Amtrak 
authorization and appropriations. The meeting was attended by 
Representatives Nadler, Gerlach, DeLauro, Senators Carper and 
Specter, and Amtrak President Kummant.
    Our goal is to protect and enhance the economic 
competitiveness and sustainability of the Northeast, which is 
currently threatened by congested, aging infrastructure that 
limits the ability of the Northeast megaregion to attract jobs 
and compete in the global economy. As business leaders, we 
recognize the that expanded and reliable funding for Amtrak 
will provide the cities and regions in the Northeast with 
vital, economic mobility and environmental benefits. We intend 
to work with our respective governors, Amtrak, and leadership 
in Washington to secure the funds necessary to preserve and 
improve this irreplaceable economic asset.
    We are also interested in expanding the role that intercity 
and regional rail can play in the Northeast by replacing 
regional air trips, providing alternatives to auto trips, and 
focusing development around train stations, to help accommodate 
the additional 19 million people anticipated in the Northeast 
megaregion by 2050 and a corresponding growth in its economy.
    We strongly support the H.R. 6003, the Passenger Rail 
Investment and Improvement Act of 2008, which would authorize 
increased funding benefits for Amtrak and significant new 
funding for returning the Northeast Corridor to a state of good 
repair. This bill would be the first authorization for Amtrak 
since 2002 and, as a multi-year authorization, would allow 
Amtrak to develop multi-year plans for Corridor investment and 
improvement.
    Bringing the Northeast Corridor to a state of good repair 
is our top priority because of the vital role the corridor 
plays in the Northeast and the Nation's economy.
    The Northeast Megaregion, which includes the metropolitan 
regions of Boston, New York, Philadelphia, Baltimore, 
Washington, and smaller cities in between, produces a combined 
GDP of $2.4 trillion dollars, about 18 percent of the Nation's 
GDP. Over 750,000 people ride some portion of the corridor each 
weekday on Amtrak or the eight regional rail services that 
share the corridor.
    The corridor is important to daily commuters on the 
regional services and business travelers who choose Amtrak's 
Acela and regional service for travel between Boston, New York, 
Washington, and points in between. Amtrak has become an 
increasingly attractive alternative to regional air trips as 
delays in northeast airports have risen.
    The Passenger Rail Investment and Improvement Act would 
allow Amtrak to make the needed investments in the Northeast 
Corridor to improve the reliability, safety, and speed of 
regional and intercity service by undertaking long-overdue 
projects such as the two Baltimore Rail tunnels, several 
bridges in Connecticut and other bridges, and replacing aging 
catenaries, train sets, ties and interlockings.
    We are particularly supportive of the following elements of 
the bill:
    In Section 209, the creation of a Northeast Corridor 
Infrastructure and Operations Advisory Commission, made up of 
Amtrak, USDOT, and the Northeast States. We believe it is 
essential that these stakeholders work together to develop and 
implement a long-term vision for the corridor that returns the 
infrastructure to a state of good repair, increases capacity, 
and reduces trip times.
    We also support the Acela Service Study, which authorizes 
$5 million to determine the infrastructure and equipment 
investments needed to achieve shorter trip times in the 
northern and southern ends of the Corridor.
    The Business Alliance is also supportive of your Ride-21 
Act, also introduced this week, which provides $12 billion in 
tax credit bonds and $12 billion in tax exempt bonds for 
developing high-speed rail corridors in the United States. We 
believe this is an important source of new funding for 
developing new high-speed rail corridors which can help replace 
air trips of 500 miles or less. It is also a first step towards 
finding additional sources of funding for intercity rail in 
this country, outside the annual appropriations process. We 
urge this Subcommittee to explore new additional funding 
sources for intercity rail, including in the next surface 
transportation bill.
    Finally, the Northeast Corridor's potential to promote 
transit-oriented economic development is of major interest to 
the Business Alliance. Philadelphia's Cira Center, a Class A 
office tower adjacent to Philadelphia's 30th Street Station, 
presents a prime example of how the Northeast Corridor can help 
focus and attract new real estate investment along its length, 
while increasing ridership, reducing the need for auto trips, 
and revitalizing the Northeast's older industrial cities. New 
York City's Moynihan Station project will play a similar role 
in the promoting economic development and revitalization of 
Manhattan's Far West Side.
    In closing, I urge you and your colleagues to support 
multi-year funding for Amtrak that will allow it to meet the 
immediate and future challenges in the corridor. These 
investments are crucial to addressing the congested roadways 
and air space that will only worsen and will only hinder our 
ability to grow and sustain a competitive economy in the 
Northeast and the Nation.
    Thank you Madame Chair and Members of the Subcommittee for 
the opportunity to address you. In due course, I would be happy 
to answer any questions.
    Mrs. Napolitano. Thank you, gentlemen, for your testimony. 
We will now proceed to put questions to you, and I think I will 
start off.
    To any of you, the bill provides for commuter railroads 
with a forum at the Surface Transportation Board to mediate 
negotiations with the freight railroads over the rights-of-way 
and operations agreements. What are your opinions on the 
provisions and do you have any additional legislative comments, 
recommendations to improve the cooperation between freight and 
passenger given that we continually have--especially in my 
area, in Pomona, where I have very, very minimal service and it 
has very, very poor on-time pickup?
    Gentlemen.
    Mr. Kummant. I would certainly encourage some language--and 
I am agnostic as to the specifics--to nevertheless emphasize 
the on-time performance issues and preserving and perhaps 
restating Amtrak's preference rights. I still think that is 
important. As I testified in a previous hearing, there is a lot 
we can do before, we get there, so to speak. There are things 
we have to take off the table with the railroads and core 
operations. We have to work on slow orders, and then certainly 
capacity and capital become the issue. But I certainly think 
that is still an important provision.
    Mr. Busalacchi. Madam Chair, I agree with what Mr. Kummant 
just said, but I think it is important that this investment 
that we are going to make will solve this problem. On-time 
service is critical to what is going to happen with passenger 
rail. We know that. I am spoiled in the corridor that I have, 
between Chicago and Milwaukee, in that our on-time percentage 
is 90 percent. We work very well with Canadian Pacific.
    But I do believe that we have to work this out together. 
Expansion is going to be critical in doing this. We are 
convinced that, as we expand passenger rail, more and more 
people are going to be on these trains. We know that; we see 
this coming. But at the same time, we also have to be aware of 
the fact that the freight companies have a business that they 
are trying to run. So we have to work this out between the two 
of us, and I think we can. I think this legislation that is in 
front of us here is going to go a long way in starting that.
    Mrs. Napolitano. Thank you.
    Mr. Wytkind.
    Mr. Wytkind. I don't have a specific position on the exact 
language you referred to, but it is clear that over the years, 
as Amtrak has tried to provide the best service possible and as 
Amtrak's employees have been at the front lines of trying to 
accomplish that, that many of the problems that Amtrak 
encounters are not Amtrak's problems that they can solve on 
their own. So what happens is, those who are looking for 
opportunities to criticize Amtrak and, therefore, promote an 
agenda to dramatically alter the way we provide passenger rail 
service, they use metrics like on-time performance to make that 
point. But the on-time performance problems, while Amtrak 
certainly gets its fair share of the blame, is not all Amtrak's 
problems. We do have to solve those problems, and they are 
solved by more than just Amtrak; they are solved by various 
parties that are involved in the process. So I think that will 
move the debate forward and give us a chance to debate how we 
make Amtrak succeed, by giving it the resources it needs and 
not u se these kind of scapegoat issues to claim that Amtrak is 
a failing enterprise.
    Mrs. Napolitano. Well, I couldn't agree with you more, 
because in my area we are going to have an increase from the 
Alameda Corridor east to the rest of the United States, I would 
assume, at least tenfold. And if I have problems now in my area 
with Amtrak, it is going to obliterate any passenger rail and 
people won't be able to get--and then the other area is the 
Colton Crossing. And I am not sure that you are aware of it, 
but that is just east of my district, and it is a bottleneck. 
Somehow, we need to sit down, as Mr. Wytkind is suggesting, to 
be able to address those to find out how we can allow the 
passenger rail to go through--because, supposedly, I am going 
to have a train every 10 minutes going through my district--to 
be able to have a good, solid way of being able to accommodate 
both, but ensuring that we get more people off the roads, 
because that is also an issue of environment, as well as 
publicly safety.
    Mr. Dodd.
    Mr. Dodd. I don't have anything else to add that the other 
witnesses haven't already said.
    Mrs. Napolitano. Thank you.
    Mr. Corbett?
    Mr. Corbett. Congresswoman Napolitano, just broadly I would 
say, regarding Section 209, where I commented about the 
Operations Advisory Commission, if that is the forum or not and 
the body, but I think bringing in the States, the individual 
States, particularly in the Northeast, in the aftermath of the 
breakup of Conrail, a lot of the individual States had also 
significant investment besides the Federal investment that they 
worked with in cooperation with CSX Norfolk Southern, and I 
think bringing them to the table would also allow to give both 
some leverage and be able to put that in the bigger picture as 
well as the Federal picture of the relationships with the 
balance between freight and Amtrak.
    Mrs. Napolitano. And there is a section there that talks to 
more cooperative work with the States. Has there been a problem 
working with States before and being able to have a good 
partnership?
    Mr. Kummant. I think that really depends generally on the 
quality of the State DOTs. I would view it more as an 
opportunity. I prefer to look on the positive side of that. You 
look at the phenomenal work in California with the $2 billion 
they have put in; Illinois; Wisconsin, obviously; New York. We 
deal with the highly competent groups and I think we see skills 
growing there, and that is a positive trend. We also have 
worked very hard in the last two years to reconfigure ourselves 
to recognize the relationship with the States as our future, so 
we have borne part of that in terms of being dysfunctional with 
having too many contact points, and we are in the process of 
fixing that.
    Mrs. Napolitano. So the new State grant program should be a 
positive step.
    Mr. Kummant. Yes, I think very positive. Obviously, the FRA 
will play a substantial role in managing and approving capital 
programs as well, but I think it will be very positive.
    Mrs. Napolitano. Thank you.
    Mr. Shuster.
    Mr. Shuster. Thank you.
    I guess I am a little disappointed to hear the word--used 
twice--cherry-picking. Of course, you pointed out the Northeast 
Corridor, which is the crown jewel in Amtrak's operation. But I 
think what Mr. Mica--it was actually Mr. Mica's proposal. I 
think to attract the funding, and Amtrak very well could be 
part of that deal, partnering with people that went to invest 
and want to provide high-speed rail.
    So I guess I understand when you talk about cherry-picking 
when you mention the Northeast Corridor, I disagree. I think 
that there is great opportunity, especially for labor. As I 
think we pointed out, 21,000 down to 19,000 in the last couple 
years. We could see 20 percent, 30 percent, who knows how many 
more people we could have employed on a real high-speed rail 
system. So I think it is a proposal that we should embrace.
    But when you used the word cherry-picking, you didn't 
mention that we have specifically in this bill--and this is 
something I worked very hard on with Chairwoman Brown--non-
service, re-establishing rail lines. Whether it is the Sunset 
Limited or places around the Country that don't have rail 
service. You didn't mention that, which, again, is 
disappointing. So I would like to get your view on that.
    Also, the other thing we had in there was poor 
performances. Let's find the five worst performers and let's 
see if somebody else might be able to come in and improve that 
performance, whether it is--it is probably a combination of 
service and financial performance, to be able to, once again, 
improve it and get ridership increased and employment increased 
on those lines.
    So could you talk about those two parts of the proposal, 
Mr. Wytkind and Mr. Dodd? Do you have negative things?
    Mr. Wytkind. I guess would disagree on one point, which is 
I think it is cherry-picking when you take the most prized 
asset on Amtrak's system and provide an opportunity for the 
private sector to take advantage of that asset to make a lot of 
money. The Nation is littered with decades of experience of 
many promises that are unfulfilled by the private sector that 
likes to come in and take over or be a partner, if you will, in 
running or maintaining, or whatever the case may be, public 
assets. So I do think it is an appropriate way to describe it.
    I don't think in my comments or in my testimony I would 
question the motives of anyone on this Committee that is behind 
this legislation in trying to improve passenger rail in this 
Country. What I think is a big mistake is to take the Northeast 
Corridor and not allow Amtrak, as the entity that runs it and 
owns it, to provide the service you are looking for, instead of 
trying to find someone out there in the private sector who can 
magically provide it. I just don't agree with the premise. We 
have a lot of experience in private industry----
    Mr. Shuster. I figured we were going to disagree on that, 
but what about the other provisions we had in there about re-
establishing service? If Amtrak couldn't do it, they couldn't 
have the performance there, what about re-establishing, having 
somebody else come in, instead of not having that line anymore? 
What is your view on that?
    Mr. Wytkind. Well, that is a different proposition. If you 
are suggesting that it would be the choice between a private 
operator and perhaps abandoning or not having service 
altogether, those are discussions that States are going to be 
involved with all the time. I think one of the things I point 
out in the testimony is that in the State initiatives, like we 
have seen in several States across the Country, it is important 
for us to make sure that the employees' interests and concerns 
are considered, and also that we don't create an unlevel 
playing field where you have a hodgepodge of operators across 
the Country that do not comply with the railroad statutes that 
apply to the industry today, like, for example, railroad 
retirement, which you have been a strong supporter of 
throughout your career. And that is happening right now as we 
speak. As I sit here today, there are plenty of operators 
around the Country that are providing service that are not 
complying with the same railroad law requirements that all rail 
carriers in this Country do.
    So I don't want to take up and filibuster--as they do in 
the other house--all the time, but there are a lot of very 
complicated issues in this bill. This bill presents a 
transformation of the rail industry, but I do not think we have 
adequately addressed all the questions that this bill poses, 
which is why we are going to continue to work with the 
Committee to try to answer some of those questions.
    Mr. Shuster. Transformation, yes, but going back to the 
golden days of passenger rail when private companies did 
operate and do it very well, and I think the key is getting 
people to want to ride the rails. I believe Amtrak's ridership 
is 26 million, or thereabouts. In the airlines, they are 
approaching, I think, 800 million people. Railroad is not going 
to go back to the days--I don't believe there are going to be 
800 million people riding passenger rail, but what we need to 
do is get it up to 30 and 35 million. And if we put the service 
in place, like we are talking about the Northeast Corridor and 
some of these other places, we will attract more people. And I 
think at the end of the day that serves everybody, people that 
need to travel and labor. You are going to have more people 
working and the conditions--we have provisions in there that 
say they are going to be protected if we go forward with this, 
so----
    Mr. Wytkind. Well, we agree with the proposition that you 
need to increase development and rail capacity across the 
Country, including the Northeast Corridor. I would not agree 
with the proposition that the private industry did it very 
well. Amtrak was born out of the bankruptcy of private 
passenger rail service in this Country. Our mass transit 
program in the 1960s was born out of bankrupt bus and transit 
providers in this Country. So we have been through one 
transformation. For us to go back to a private model ignores 40 
years of history.
    Mr. Shuster. Well, but it doesn't ignore the air travel, as 
well as the automobile. I mean, that is a big reason why people 
got off the trains; they got into their cars. And now we are 
having just the opposite we want to occur, and we are seeing it 
in the Northeast Corridor. We want people to get out of their 
cars, and people want to get out of their cars and onto the 
trains.
    Once again, obviously there are different reasons for 
things to occur, but, again, I think this is a great 
opportunity for us all to embrace this and move forward in a 
positive direction, because I think that the future for rail is 
going to be high-speed and that, I believe, is going to be the 
great salvation, is making sure we have the service in place.
    Again, we have to look at a new model to do it, and I think 
this puts forth a model that I think doesn't necessarily meet 
everybody's--not even all my--expectations or desires, but I 
think it is a positive move in the right direction. So I would 
like to continue to talk to labor and work these things out, 
because I think this is a huge step in the right direction.
    I have gone way over my time. We can finish this 
discussion. I would like to talk to Mr. Dodd in private down 
the road, if we could.
    Ms. Brown. [Presiding] Mr. Sires.
    Mr. Sires. Thank you, Madam Chair.
    Mr. Kummant, I represent the northern part of New Jersey--
Newark, Jersey City, that whole area--and there is a lot of 
talk about construction of a new ARC tunnel going into the 
city, and I just wanted to know what impact it is going to have 
on Amtrak and are you going to be able to work with New Jersey 
Transit when this is done.
    Mr. Kummant. Well, we work with New Jersey Transit every 
day, and I think we work with them very well. Our biggest 
concern is the total capacity on a north-south basis through 
New York. So I think a legitimate question to ask is is there 
going to be a tunnel that reaches into Penn Station and allows 
the total Northeast Corridor capacity to expand, or is it only 
something for New Jersey traffic going into the city. And I 
think that is something we continue to have fairly strong 
feelings about and would like to continue a dialog on. We work 
with New Jersey Transit every day. They get great service from 
us, they are over 90 percent on time and we have a good 
relationship, and I don't see any reason why that would change.
    Mr. Sires. Because, I mean, New York City is certainly an 
engine that promotes jobs for the whole region, and we are 
constantly seeing an increase in ridership, so I was just 
wondering what kind of impact you saw that having on Amtrak.
    Mr. Kummant. Well, again, I think the biggest question for 
Amtrak is actually a north-south capacity, and if there is an 
overall design and structure that precludes any capacity 
expansion north-south, I would say that is an issue for the 
entire region, it is not just Amtrak's issue, and that is 
something we need to keep talking about.
    Mr. Sires. A.a large part of this Amtrak reauthorization 
bill provides for Amtrak funding for debt service. Can you 
explain the reasons for such debt?
    Mr. Kummant. Sure. It is a historical artifact of having 
dropped our funding to zero in a number of years and there were 
sale leaseback deals that were made. Most of the debt is for 
leases on equipment. And the debt service number that is shown 
provides us an opportunity, on a cost-benefit basis, to be more 
effective if we buy down some of those leases and it really 
reduces costs in the out-years. So we can continue just paying 
that off. We have added no new debt in five years and we 
continue working it down.
    Mr. Sires. So you are actually reducing the debt?
    Mr. Kummant. That is correct. We have reduced the----
    Mr. Sires. And you haven't had any debt for the last five 
years?
    Mr. Kummant. That is correct. We have added no new debt and 
we have reduced debt. We could continue running at a $285 
million debt service clip. The only reason we show some 
expansion of that is that allows us actually to reduce some of 
the debt in the out-years, which is at fairly high rates and it 
makes sense to buy it down if we have that ability.
    Mr. Sires. Is that the type of debt you can refinance with 
the low rates now?
    Mr. Kummant. It is difficult to say. The collateral and 
Amtrak's overall financial structure makes debt covenants very 
complicated, so there is no very straight answer to that, it is 
sort of a deal-by-deal sort of question. Difficult, I would 
say.
    Mr. Sires. And I see that you do some outsourcing. How is 
this going? And the reauthorization bill, is that going to 
impact that at all?
    Mr. Kummant. Well, we keep doing the right things and 
trying to make the right decisions for the business. I don't 
see that that is necessarily going to change. We have a great 
core of employees and, again, if you were to double Amtrak 
ridership, you would probably add 5,000 to 10,000 jobs at 
Amtrak, and that will continue. So I think we will continue 
responsibly managing the business.
    Mr. Sires. Anybody want to comment on the outsourcing, the 
impact that it may have on the reauthorization bill?
    [No audible response.]
    Mr. Sires. I guess not.
    Okay, thank you, Madam Chairperson.
    Ms. Brown of Florida. Thank you.
    We are going to stand in formal recess. The Chairman has 
some questions and I also have some questions. We only have one 
vote, so as soon as we finish that vote we will reconvene. 
Thank you.
    [Recess.]
    Ms. Brown of Florida. We are going to get started. I know 
the other Members are coming back, but I have questions. A 
reporter stopped me in the hall and asked me about the 
privatization that is in this bill. There is nothing in this 
bill saying that we have to privatize, nothing in this bill 
saying that Amtrak cannot participate, and, in fact, there is 
nothing in this bill saying that we will move forward unless 
they come back to Congress. One of the things I have learned 
since being elected 25 years, if all else fails, read the bill.
    [Laughter.]
    Ms. Brown of Florida. Mr. Kummant, the intercity passenger 
rail opportunities that are present along the Southeast 
Corridor to improve connection for people and improve our 
economy along the east coast. Do you want to respond to that?
    Mr. Kummant. Yes, absolutely. I guess I would frame it in 
the context if you just gave me $10 billion or $20 billion and 
asked ``what would you do,'' one of the first things I would 
look at, actually, is going south, rather than necessarily 
changing things in the north. We obviously want to do all the 
state of good repair work on the Northeast Corridor, but we all 
know D.C. to Richmond is one of the most congested corridors in 
all modes in the Country. That would be a very natural place to 
put capital in. Then I can imagine an electrified system from 
D.C. down to Atlanta. North Carolina has a wonderful rail 
program and I am sure would embrace that idea. I think of it in 
stages of D.C. to Richmond, Richmond to Charlotte, Charlotte to 
Atlanta, but I think that would be an enormous opportunity for 
the whole region and tie these high-growth population centers, 
and then we would truly have an Eastern Corridor, not just a 
Northeast Corridor. So I think that would be an enormous 
opportunity.
    Ms. Brown of Florida. I think there is some money in there 
for a study for what you are discussing.
    Mr. Kummant. Yes, I think that also goes along the lines of 
the continued I-95 improvement program and certainly is 
something we continue looking at.
    Ms. Brown of Florida. Recently, my mayor was up here and I 
flew from Washington to New York--we had meetings in New York--
and he took the train, and he beat me there. And I sat on the 
runway for over two hours, running. This was the shuttle. So 
can you explain to us about the difference in the cost?
    Mr. Kummant. Sure. Again, overall, we market pretty 
competitively, particularly with the Acela product, that it is 
sort of in the range of what you pay for a walk-up ticket on 
the airlines as well, and I think going city center to city 
center makes a big difference. We have an express service today 
that also gets you center to center in two and a half hours 
with a stop in Philadelphia. So, again, the cost that the 
passenger sees on Acela , we view that as airline-equivalent. 
We have about 63 percent market share, I believe, in the first 
quarter, of the air-rail share between New York and D.C. The 
Regional product is certainly a little slower and is also 
priced accordingly.
    Ms. Brown of Florida. Okay. You stated at last year's 
Amtrak capital needs hearing that Amtrak's current trip time of 
two hours and 45 minutes could be reduced to two hours and 20 
minutes with approximately $7 billion of improvements. How 
would Amtrak's air market share improve as a result of this 
investment? Do the benefits match the investment in this 
scenario?
    Mr. Kummant. We would probably qualitatively say not. 
Again, that is the big Baltimore Tunnel and all the other 
tunnel issues, and taking some of the sharper curvature out of 
that right-of-way. That is a difficult question to answer. 
There hasn't been a detailed market share study done, but, as I 
say, we do put an express service on where we are essentially 
learning more about that market.
    Ms. Brown of Florida. You stated in your testimony that 
U.S. Air canceled its service between La Guardia and Harrisburg 
because it could not compete with Amtrak. Very good. What do 
you equate this to? How do you evaluate this?
    Mr. Kummant. Yes, we looked again at the city center to 
city center opportunity, and even though you go through 
Philadelphia, the connectivity was good enough that passengers 
just liked the service, they liked the speed, the 110 miles an 
hour was fast enough to make a difference, an the connection up 
the Northeast Corridor really worked for them, so it has just 
been convenient. There is also a tipping point, as we have 
talked about before, on frequency, the same sort of thing we 
see on the Hiawathas. When you get to a certain frequency, you 
really have ridership take off because they no longer have to 
just peg their schedules to one or two trains in a day.
    Ms. Brown of Florida. Mr. Secretary, we put--I think it 
is--about $50 million for the 80-20 share. It is important to 
encourage States to make passenger rail investment. Why is this 
cost sharing important?
    And, Mr. Kummant, could you answer that also? Would you 
care to respond?
    Mr. Busalacchi. Thank you, Madam Chair. For the State of 
Wisconsin, it is going to be critical because we are looking at 
expanding our service from Milwaukee to Madison. The State 
legislature, along with the Governor, has given us about $85 
million in bonding authority for our match, so it is important 
that we get the federal investment.
    And that is what I keep calling all of this, I call it 
investment. It is not like we are putting money someplace where 
we are not going to get something back for it; we are going to 
get some real public good out of the dollars that we are 
investing here. So that is why this bill is so important.
    There are still going to be highways, Madam Chair. I mean, 
we know that. And being a DOT Secretary, I have all kinds of 
work that we need to do. But we need to provide these modal 
options to the American public. The American public wants 
passenger rail, and I believe, as we get into this integrated 
system across the nation, more and more people will ride these 
trains. Then we'll need more expansion. So that is why I 
believe this bill is so important.
    Ms. Brown of Florida. Thank you.
    Mr. Kummant. All I would add is equipment as well as 
infrastructure. These dollars can buy equipment for the States, 
and that is so critical. In the past, when Amtrak had a lot of 
equipment in storage, we could get corridors started up, add a 
little incremental cost and say, hey, why don't you use this 
equipment for a while. We no longer have that option, so it is 
critical in order to procure equipment to get these going.
    Ms. Brown of Florida. Mr. Kummant, where is the equipment 
now? For example, on your train from Virginia to Sanford, you 
run, I don't know, but it is about 500 people a day each way, 
so it is about 1,000 people. It is filled the entire time. Why 
can't we add more services?
    Mr. Kummant. We are basically out of equipment. We have 
some opportunity. We have some--they are called Amfleets that 
we have slated to refurbish, but we are talking about maybe 10 
or 12 more cars that we can put into service on the Northeast 
Corridor. But we really don't have any equipment except for a 
few stray cars that are in wreck repair status, but we really 
are basically out of equipment.
    Ms. Brown of Florida. So if you had more cars, you could 
provide more service?
    Mr. Kummant. Oh, absolutely. Absolutely.
    Mr. Busalacchi. Madam Chair?
    Ms. Brown of Florida. Yes, sir.
    Mr. Busalacchi. This is also a concern that the States for 
Passenger Rail Coalition. Equipment is a big issue, and as 
people are migrating to trains, everybody wants to know what is 
the tipping point that is going to get people out of their 
cars. I think we are seeing that that is happening. But we are 
not ready. Amtrak is not ready. I mean, to get equipment, to 
procure equipment is going to take some time. We need to move 
quickly on this bill.
    I know it is difficult because we have a process that we 
have to go through, but when the American public starts moving 
to trains--and they are, and they are going to be moving to 
this in greater numbers very, very quickly--they are going to 
ask the question, well, why isn't the nation doing more of 
this. And that is really the concern that the Coalition has and 
that I have in our State. We need to somehow get this equipment 
ordered and get it on time.
    Ms. Brown of Florida. Thank you.
    Mr. Oberstar.
    Mr. Oberstar. Mr. Brown first.
    Ms. Brown of Florida. Oh, I am sorry. Mr. Brown.
    Mr. Brown of South Carolina. Thank you, Madam Chair.
    Thank you, gentlemen, for coming. My district is coast area 
of South Carolina, which includes Myrtle Beach and Charleston, 
and we have a tremendous amount of influx; over 14 million 
visitors a year coming into that region, and we don't have any 
real rail service other than the Charleston. Myrtle Beach 
doesn't have any rail service attached at all. So it is a big 
concern of mine, and I want to follow up on that.
    But my first question, Mr. Corbett, your company was 
instrumental in helping build some roads in Myrtle Beach, which 
has helped with the congestion problem some, and I just wanted 
to give you credit for that. It was a design-build and on-time 
and below budget, and so with that in mind, as we work towards 
developing a high-speed rail corridor here in the United 
States, how should we structure development of these projects? 
What would be your thought?
    Mr. Corbett. Well, thank you for that and, of course, I am 
here as part of the Business Alliance, but looking at Amtrak, I 
think we have touched on, in my testimony, about the importance 
of transit-oriented development for all the right reasons when 
we look at corridors in a belief to capitalize on that. I think 
there are a lot of very interesting items in here. I know 
Congressman Shuster was talking earlier, before the break, 
about where the possibilities are for P-3s, public-private 
partnerships on that. In certain areas you can see where 
capturing the value of the real estate to help with some of 
that funding from a State or local perspective ties in.
    But I think sort of a new initiative is when we look at the 
core of the funding for this bill for Amtrak, what would be of 
concern is that those initiatives do not become a distraction 
from the importance of getting the core funding for Amtrak as 
shareholders, public or private, as an entity. Whoever owns the 
shares of Amtrak, it is common sense that you make being on 
time, on budget, that you invest in your assets, regardless of 
what you are going to do with them down the line. And I think--
not to praise Alex, because he is here, but if you look, I 
think, from the business community, Amtrak as a partner, the 
credibility that David Gunn, and now Alex has continued, about 
that money being wisely spent and also working cooperatively, 
as Alex touched on with New York, working as a partner on a 
number of areas, Amtrak has certainly, from the business 
community's viewpoint, really made a remarkable turnaround and 
it has certainly been seen as a sustained turnaround under 
Alex's leadership.
    But, Congressman Brown, I think there are a number of 
opportunities that capitalize on corridors and transit-oriented 
development, and being able to bring in the private sector, 
where appropriate, you can be on time and on budget with public 
in those cases. Thank you.
    Mr. Brown of South Carolina. Okay, thank you.
    The next question is for Mr. Kummant. I know that you have 
a tremendous responsibility in moving passengers around, but I 
don't know whether you are privy to the current high-speed rail 
corridor that was last amended about 1998. I am not sure what 
form it was used to address the needs of the growing population 
or the shifting population or even tourism. In the movement of 
passengers now, do you see the biggest, I guess, customer, are 
they tourists or business travelers, or what mix do you see, 
and how do you make your determination what routes should be 
established based on either one of those criteria?
    Mr. Kummant. Well, I think we look at the same maps, and I 
think if you look at the demographic growth, the megaregions--
Phoenix, Tucson, L.A., Bay Area, Pacific Northwest, Chicago, 
the macro Chicago area, Dallas, Ft. Worth, obviously Florida in 
the Southeast, and then the whole Northeast--it is major 
corridors between those regions that we have to concentrate on, 
and it is not too different a mix from what airlines see today. 
A lot of it is business travel. I don't have the breakdown at 
my fingertips, but we have a pretty detailed breakdown of what 
those are. So I think we look more at the longer-term 
demographics.
    Then there is also the question--and this is always the 
debate that involves pragmatic decision-making, which is what 
is doable. Where is there existing capacity? Where is there 
rail? Where is there a willing partner? What can you get done? 
Because you can have a remarkable need and opportunity, but 
huge hurdles to get there, while you can have something that is 
maybe number two on the list that is very doable. So we always 
have to make choices about what is doable.
    Mr. Brown of South Carolina. I am not sure whether it is 
just because they don't have an option, but in Myrtle Beach, 
with those 14 million tourists coming a year, 92 percent come 
by automobile, and I don't know how many would translate to 
high-speed rail if that was available.
    Mr. Kummant. Well, I would have to stare at a rail map, but 
I believe you end up being constrained with where the rails run 
there. You have rails that run inland and then major sort of 
rail corridor that is farther inland. I would have to verify 
that to look at it. But, again, we have robust programs in the 
States there and that is all about the relationship with the 
State DOTs. They really need to push that and they need to get 
their balanced view of the State's transportation needs.
    Mr. Brown of South Carolina. Thank you.
    Thank you, gentlemen.
    Ms. Brown of Florida. Mr. Oberstar?
    Mr. Oberstar. Well, I want to thank this panel for their 
contributions and, again, Madam Chair, thank you for your 
persistence on the subject of Amtrak; Mr. Shuster as well for 
the cooperation that we have had in negotiations that we 
entered into and the agreement that we reached that resulted in 
the introduced bill.
    We have an extraordinary opportunity to move ahead with the 
kind of sustained funding--Mr. Corbett suggested in his 
testimony multi-year funding that will sustain Amtrak, multi-
year funding that Railroad Brotherhoods have asked for for year 
after year instead of the year-to-year, hand-to-mouth, just 
squeak Amtrak over the top of a billion dollars so we can keep 
it on life support for yet another year. We have here the 
potential for really sustained investment in track and rolling 
stock, in stations, in the upgrading and modernization of the 
entire Amtrak network.
    And I know that there are some differing views that were 
very clearly expressed in the testimony, but let me begin, Mr. 
Kummant. Questions have been raised will there be enough 
capacity in the United States for production of rail passenger 
cars to meet the increased demand when we get this--and I am 
not saying if, I am saying when we get--funding in place. I 
know that there is currently production capacity for about 
100,000 freight rail cars a year in the United States. I also 
know passenger rail car production declined because we weren't 
investing in that mode. But with the potential here, do you see 
the ability of the production sector, the rail car 
manufacturing sector to meet increased needs?
    Mr. Kummant. Well, I think it is all a question of time. I 
think if a bill like this passed, I think it would get 
everyone's attention and you would probably also have foreign 
entities looking for assembly sites here if we had a structure 
that allowed that. From a standing start right now, no, we 
don't have that much capacity, but I am certainly confident. 
You talk about stimulative effect. I think a bill like this 
would certainly drive people to look at that. It would take 
some time, but----
    Mr. Oberstar. In the transit sector we saw production of 
transit vehicles, bus and rail, move offshore. Allied Signal 
was about the only thing left in the mid-1980s. But now that 
has been repatriated to the United States.
    Mr. Kummant. Well, I am really originally a manufacturing 
guy. Where the dollar is, the U.S. is a very attractive 
manufacturing site. So if the demand is there, I think the 
capability and the capacity will come.
    Mr. Oberstar. Do we have to stick with the much heavier 
passenger rail cars, compared to, say, Talgo and to TGV or even 
Shinkansen?
    Mr. Kummant. Well, I don't want to get into trouble with my 
friends at the FRA. Let's just say that there is room for 
discussion there, I think. I think some of those folks have 
some very advanced energy management approaches to crash test 
worthiness and I think we do need to look at some of the static 
requirements that have been put on this.
    I think we all acknowledge that some of the difficulties 
with Acela resulted in the increase in mass in those 
structures. So let's just say that I think we need to look at 
that and I think there is some opportunity. After all, the more 
we can buy off the shelf or minimally modify the core 
structure, the more cost-effective it will be.
    Mr. Oberstar. Is there also the consequence of operating on 
freight rail track that requires heavier passenger cars because 
of potential for conflict with----
    Mr. Kummant. Well, that is the argument, but then if you 
imagine--and you hate to talk about these things, but 
collisions between transits or commuters and intercity rail, 
then suddenly you have a different equation if you have beefed 
up one and not the other. I would much rather put my money into 
collision avoidance and advanced technology on collision 
avoidance than necessarily continue adding mass to rolling 
stock.
    Mr. Oberstar. That is a very constructive comment. I 
appreciate that. That is what we have done in aviation as well, 
collision avoidance.
    Commissioner Busalacchi, your testimony is so refreshing.
    Mr. Busalacchi. Thank you.
    Mr. Oberstar. Just so uplifting to see this advocacy and to 
have your specifics on what the State of Wisconsin has done on 
its own and in cooperation with the State of Illinois. Could we 
move you a little bit west, take over Minnesota?
    Mr. Busalacchi. We want to do that, Mr. Chairman. I mean, 
obviously, extending to Madison is critical, but also equally 
critical is going from Madison to Minneapolis.
    Mr. Oberstar. We do have a new Commissioner of 
Transportation in Minnesota----
    Mr. Busalacchi. I know that.
    Mr. Oberstar. Let me rephrase that. We have a Commissioner 
of Transportation in Minnesota--we haven't had one in a long 
time--and I think we will begin the process of 
professionalizing our commitment and investment, and hopefully 
a partnership with Wisconsin and Illinois and other States--
Iowa--who are anxious to join in the Midwest rail initiative.
    You cited a concentration of corridors of 500 miles or 
less. What was the reason behind the 500 miles?
    Mr. Busalacchi. As you probably know, Mr. Chairman, USDOT 
has limited data on passenger rail. They could tell you every 
inch of concrete that has been poured and asphalt, but when it 
came to having data on passenger rail, they had much less. So 
we formed the passenger rail working group, and the working 
group, we came up with this plan in these 500 mile corridors. 
It is an integrated system, in populated areas, because our 
feeling is that once the passenger rail service system is 
running, and we get it up and running quickly, that it is going 
to expand throughout the whole Country.
    The map that was in the report was illustrative. Each State 
is going to be responsible for their own corridors. But in the 
past few weeks I spent time in several different states. States 
really want to implement this plan in these populated 
corridors. Across the State of Ohio it would be huge connecting 
the number of cities that they have. That is why this 
legislation, Mr. Chairman, is so important.
    Mr. Oberstar. What is the significance of the 500 miles? Is 
that in consideration of competition with air service?
    Mr. Busalacchi. Yes.
    Mr. Oberstar. Hub and spoke air service, where you can 
serve routes of 500 miles or less?
    Mr. Busalacchi. Absolutely. Absolutely. That is really the 
reason for it.
    Mr. Oberstar. In what time frame? What time do you 
anticipate?
    Mr. Busalacchi. Well, we would like to implement this as 
soon as possible. Obviously, it is going to----
    Mr. Oberstar. But I mean the travel time from point to 
point. If you have, say, quad cities to Chicago now takes on 
the order of five or six hours.
    Mr. Busalacchi. Six hours at least by car. We would like to 
shrink that down to three, four hours if we can.
    Mr. Oberstar. And if you do that by passenger rail, then do 
you attract people from other modes, from getting out of their 
car?
    Mr. Busalacchi. Oh, absolutely.
    Mr. Oberstar. Not taking airplanes?
    Mr. Busalacchi. Absolutely. Absolutely. I mean----
    Mr. Oberstar. Mr. Kummant, is that your experience as well?
    Mr. Kummant. Yes. For example, the Hiawatha Corridor, is 86 
miles, and there we have seen dramatic shift in its frequency, 
and, of course, the Northeast Corridor here. You look at the 
typical transit time New York to D.C. today is two hours and 45 
minutes, two hours and 50 minutes. That kind of gives you a 
sense of that.
    I think, also, if you think in terms, in my view, of even 
what 100 to 110 miles an hour can do, you are talking about 500 
miles in less than five hours. And I think if you think of sort 
of your normal airport experience, an hour at each end, an hour 
in transit, plus some time, you are talking about three or four 
plus hours not city center to city center. So I think a four to 
five hour chunk of time is kind of a natural break, which leads 
you to the 400 to 500 mile as the outside.
    Mr. Busalacchi. Mr. Chairman, the corridor from Minneapolis 
down to Madison and down to Milwaukee, through Chicago, is 
totally congested. You know that.
    Mr. Oberstar. Yes.
    Mr. Busalacchi. This rail program would dramatically reduce 
that congestion. Dramatically for automobiles. And it would 
also compete very strongly with the regional airlines. So this 
corridor in particular would be critical to what we are talking 
about with this integrated system.
    Mr. Oberstar. You also reference in your testimony that 
service, and I just recall the Milwaukee 400, Milwaukee 
Railroad that I took as a graduate from St. Thomas College en 
route to Europe for studies on a scholarship I won in 1956, and 
I traveled by train to the east coast. This was obviously 
before the era of air service.
    Mr. Busalacchi. Sure.
    Mr. Oberstar. And it was the Milwaukee 400, 400 miles in 
400 minutes. That is six hours and 40 minutes. Well, that 400 
miles in Europe takes about two hours or so.
    Mr. Busalacchi. Correct, especially in France and Spain. I 
have been there; you have been there. We have seen it.
    Mr. Oberstar. So if you can cut an hour plus out of that 
time, you will clearly attract passengers from air service 
between the Twin Cities and Chicago.
    Mr. Busalacchi. No question about it, Mr. Chairman. No 
question about it. Again, if we look around the Country and we 
look at these corridors, these trains are packed, whether it is 
California or the Carolinas, our corridor, and it is because of 
this setting this system that we are talking about setting up.
    Mr. Oberstar. Did the Commission consider any further depth 
or is there any other entity that has considered the type of 
service, that is, maybe a non-stop morning and evening service 
and then with more frequencies in the course of the day?
    Mr. Busalacchi. Well, I think that would be up to the 
respective States. I know I have been talking to Amtrak for a 
couple of years now about going to hourly service because we 
are so successful. I think the various corridors can do what 
they want to do. Amtrak has been very good about it.
    Mr. Oberstar. Well, in an hour and a half we are going to 
have a hearing on a proposed airline merger, and if that thing 
should happen,--which I am doing my best to make sure it 
doesn't happen--we will need Amtrak, because that hub in 
Minneapolis will be so quickly devalued that we will need 
Amtrak service from Union Station, St. Paul to Union Station, 
Chicago.
    Mr. Busalacchi. I agree.
    Mr. Oberstar. Our new hub for air service.
    Mr. Busalacchi. I agree.
    Mr. Oberstar. Mr. Wytkind, you spelled out some very 
troubling scenarios in your reference to British Rail and 
concerns that you have with privatization provisions in our 
pending bill. What specific recommendations--and your 
recitation of the experience with British Rail was right on 
track. I remember our previous Chairman, Mr. Shuster, and I 
traveled to the U.K., among other stops, in December of 2000, 
had a meeting with Members of the British Parliament committee 
on transportation and the Minister of Transportation, and they 
had, just a day before we arrived, voted 600 million pound 
bailout for British Rail, and it was going to the owners of the 
track. And we asked why would you do that, and they said, well, 
because if we don't bail them out, they will walk away and 
there will be this enormous mess we won't be able to resolve. 
We have to keep them on life support for a while.
    So you raise very serious questions about the ability of 
the private sector or privatized entities to operate intercity 
passenger rail profitably. You reference Section 502 of our 
bill. What specific recommendations do you have for adjustments 
to our language?
    Mr. Wytkind. Well, first of all, we stated, I think pretty 
clearly, that our view is that it makes no sense to pursue an 
RFP on the Northeast Corridor because we do believe it is a bit 
of a path to having a debate up here to privatize Amtrak, or 
parts of it. You have been the leader on opposing air traffic 
control privatization for a number of similar, but I understand 
different, reasons in terms of the public policy debate. You 
and I have seen for years the impact that privatization has had 
in the mass transit industry, where you have these big promises 
that are never delivered upon, and Amalgamated Transit Union, 
the largest mass transit union in the Country, has seen many 
examples of under-promising and then having to basically help 
bail out the system because it didn't quite work out the way it 
was intended.
    I think the pure answer to your question would be to remove 
the provision from the bill. The other alternative would be to 
make it very clear in this legislation that this is really 
nothing more than studying the possibility of having an RFP on 
the Northeast Corridor or elsewhere in the Country and then 
making it very clear in the bill that Congress is going to have 
to legislate again. I understand the Chairwoman's comment 
earlier, but I think it is important to make it very clear that 
once the Department of Transportation completes its work, that 
the work is completed and that it is going to be the will of 
Congress to decide what it does with the RFP. I understand that 
is the intent of the bill; however, it doesn't exactly say that 
and we think it should.
    Mr. Oberstar. I think it is important, at this juncture, as 
we are trying to move in a very different direction for Amtrak, 
that we give these privatization proposals an opportunity to be 
heard, to be evaluated in the public sector, either purely 
privatized proposition or a public-private proposal, and 
evaluate them and give them an opportunity to show what they 
can offer to the public.
    I think that is an essential part of the debate of the 
future of intercity passenger rail. We want this to be a fully 
bipartisan initiative--I would hope, in a sense, nonpartisan--
and I think we need to have that element as a part of the 
process as we go forward. So I take seriously your concerns and 
we are at the beginning of the process here and we will move 
forward with those in mind.
    Mr. Wytkind. If I could, Mr. Chairman, I think I have been 
here in Washington representing transportation workers for 
almost 18 years and there, frankly, isn't a Member of the House 
of Representatives who has listened to the views of employees 
in this industry more than you have, and I have every 
confidence that, as we move forward with this debate, that the 
interest, the rights, the jobs, etc. of the workers at Amtrak 
and across the transportation industry will be not only a 
concern of yours, but that you will champion their interests as 
we go forward.
    Mr. Oberstar. Thank you.
    Mr. Dodd, I take seriously your concern about--well, let me 
just use your words. We cannot imagine any practical way to 
separate the two hour service from the other intercity commuter 
and freight operations on the corridor. In your view, from your 
experience as you said, starting as a trackman yourself in 
1977--you don't look old enough to have started in 1977, but, 
at any rate, you have had your feet on the ground and probably 
as a gandy dancer. So what specifically do you see as 
impediments in that mix of service that you cite in your last 
page of your testimony.
    Mr. Dodd. I realize the proposed legislation doesn't 
specifically say take an RFP to run privatized train service on 
the corridor, but, as a practical matter, the Northeast 
Corridor between New York and Washington, D.C. is the only 
place to do it. It is a heavily congested area; the population 
centers are there; major rivers; major infrastructure problems. 
So any proposal would quite naturally have to take into account 
running some sort of privatization scheme on the Northeast 
Corridor as a practical matter, and we view that as a serious 
public policy problem and a problem that all historical 
experience has indicated will result in the worst service and 
less bang for the public dollar.
    I think Amtrak has demonstrated the best ability to operate 
intercity passenger rail trains on the corridor in terms of the 
ability to recover money from the fare box and the wise use of 
the taxpayer's dollar, and I think these types of schemes 
literally result in expenditure of Federal funds, threats to 
worker's safety and worker employment security and working 
conditions, and eventually the diluting of that asset by the 
privateer and dumping it back on the Government to start all 
over again; and we would recommend that you drop this 
provision.
    Mr. Oberstar. All right.
    Mr. Dodd. Thank you, Mr. Chairman.
    Mr. Oberstar. I hear you. Thank you.
    Mr. Corbett, what elements have to be present for a purely 
privatized operation to be successful financially or what would 
be the elements of a public-private venture to be successful?
    Mr. Corbett. I would think, starting from a macro level, we 
were involved globally in a number of infrastructure projects, 
either public, private, or public-private partnerships. I think 
in the transportation side, where we look at, say, port 
privatization overseas and you see ports here, if we look at 
aviation and what has been done, and then looking at rail, I 
think if you look at some of the possibilities in the bills, as 
you commented, I look at our percentage of GDP in the Nation, 
what goes to infrastructure.
    Lord knows we need as much investment, both public and 
private, to catch up with what Europe, much less what India and 
China are doing. I think when you get down to the rail portion, 
though, the idea sometimes you can throw something against the 
wall and see what happens, and we have seen certain 
privatizations that are not particularly well structured--not 
on the rail side, really, because there hasn't been much--and 
the consequence of that can be pretty unfortunate.
    I think when you are talking about serious bidders in 
infrastructure, the due diligence efforts that they have to put 
in--financial, environmental, legal, labor--if you want a 
serious bidder, they want to have very clear parameters of what 
they are bidding on, a lot of due diligence, even geotechnical. 
It gets very extensive and very costly, so I think to look at 
people who want--if you want quality bidders coming in, I think 
you have to look at the experience, what kind of due diligence 
would be, and I would--for the Northeast Corridor I think it is 
very hard to imagine that is the plum that would be--that 
process would be so deep and cumbersome. As I think I mentioned 
earlier, I would be very concerned that that may lead people to 
defer the core investment in this valuable asset.
    Putting out more of a greenfield kind of proposal or some 
other kind of--I think, Chairman Oberstar, you know, I 
remember, with the aviation pre-9/11, I think there were five 
pilot projects for commercial airports in privatization and 
that was sort of to test the waters. Of course, 9/11 changed 
that. New York Stewart Airport was one of the first with 
National Express Group, at the time a credible bidder, but 
then, of course, they decided to get out of the aviation 
business and concentrate on the bus business, and that left a 
hole as a private sector participant there.
    So there are a lot of those kind of issues that I think you 
have to be very cautious and make sure that a structure will be 
able to take those kind of contingencies into effect.
    Mr. Oberstar. What effect would the cost or does the cost 
of capital have on the considerations that have to go into a 
privatization scheme?
    Mr. Corbett. I am not the financial guru in our shop, but I 
would say certainly when you look at the cost of--which is an 
interesting component that the business alliance support, is 
for tax-exempt bonding or the credit bonding, I think that 
levels the playing field to a certain degree.
    Mr. Oberstar. But without tax credit or tax exempt bonding, 
can such a privatization initiative be financially successful 
in, say, the Northeast Corridor?
    Mr. Corbett. I think you would have to do a financial 
sensitivity analysis at what point. But if you add that 
additional cost, private sector companies are in this to make 
money. There are times they can add certain efficiency, but if 
you take the higher cost of capital and put that all into 
analysis, what kind of fares they would have to charge to get 
back without--that is an incremental cost that would go above 
it if it is not tax-exempt, yes.
    Mr. Oberstar. Well, those are the kinds of considerations 
that we anticipate the Inspector General to make as directed by 
the legislation to evaluate the lowest performing routes of 
Amtrak and make recommendations to the Secretary about the 
investment.
    I just want to say to my colleagues on the Committee that I 
talked with Chairman Rangel, Chair of the Ways and Means 
Committee, about the tax credit bond provision, and we had done 
in previous legislation we moved in Ride-21 and then considered 
by the then Ways and Means Committee the substance of the bill 
was stripped out and nothing was left. Mr. Rangel is willing to 
consider--very supportive of a tax credit bond provision of the 
magnitude we are talking, but he said that his staff has 
consulted with CBO, Congressional Budget Office, and OMB, and 
they require an offset of at least $4 billion. That is 
something that our two Committees are going to have to work on, 
and it is not likely something we can add as an integral part 
of the Amtrak authorization bill, but as a separate piece of 
legislation hopefully--well, I would anticipate in the balance 
of this Congress in the context of another tax bill.
    Not the kind of news that I was hoping for, but we have 
tied ourselves into knots about paying for things and this is 
going to be a pay-for and we have to find the offsets.
    I thank the panel. Am grateful for your contributions and 
yield back the balance of my time.
    Ms. Brown of Florida. Thank you, Mr. Chairman.
    We have a couple more questions.
    Mr. Wytkind, you stated in your testimony that some 
segments of the transportation networks are best left to the 
public sector. Please explain what you mean. I guess this is 
what we have been talking about.
    Mr. Wytkind. Well, I believe that providing a national rail 
transportation system for this Country through Amtrak is 
largely a public enterprise that needs to balance the economic 
interests of those investing the money and the public interest, 
which includes the interest of riders, the interest of the 
public around rail transportation facilities and the 
communities through which they travel. I think the same debate 
we have had over maintaining the inherently governmental 
functions of our air traffic control system, maintaining a 
strong public transportation system that understands that the 
system has some cross-subsidization in it which focuses on 
making sure all communities get the service they deserve, as 
opposed to just allowing private interest to choose where 
service will be provided, which, of course, would maximize 
their investments and hopefully reach some sort of 
profitability.
    I just think that we have to understand the history of this 
Country since we began with the national interstate highway 
system. It has always been largely a public system. I 
understand that the private sector has an important role to 
play in our transportation industry, and I said that in my 
testimony, including the work that contractors do in our 
highway industry and the use of other private sector 
participants in aviation and elsewhere, but I believe, as a 
general proposition, providing a national passenger train 
service to this Country is basically a public service and it 
ought to be kept in the public sector because of all the 
complications and all the other motives that get interjected 
into a debate about whether or not Wall Street or anyone else 
in the private sector should be involved in financing these 
kinds of operations because, as I said in my testimony, it 
sounds real good when you bring a lot of money and put it on 
the table, but when the promises are not delivered, when the 
system fails, like we saw in Great Britain, oftentimes the 
taxpayer is saddled with the bailout, as Mr. Oberstar said 
earlier, as we saw in Great Britain. So I just inject great 
caution into this Committee's deliberation on how you proceed 
with this legislation.
    Ms. Brown of Florida. Well, when we had a hearing, the 
European Union came and testified. They finally got their 
system on track and it is moving. The French had been there for 
a long time, but finally the other part, the English part, is 
moving forward. So we really need to make that kind of 
financial investment into our system.
    Mr. Wytkind. Oh, I do not quarrel with that. I agree 
wholeheartedly with you that we have to find a way to increase 
investment across our entire transportation industry. But I 
know from reading media accounts in Great Britain that 
politicians from all sides of the aisle were fumbling all over 
themselves trying to see who could be more against the Great 
Britain privatization experiment. So I think it is fairly clear 
that that experiment wasn't just an experiment; it was a 
debacle, and I, frankly, am worried that we are going to repeat 
that in the United States if we proceed with this kind of 
privatization.
    Ms. Brown of Florida. Well, with your support, I am sure we 
will be very cautious as we move forward. In your testimony, 
Amtrak must retain good employees and often pay Amtrak an 
attractive place to work and the Amtrak employees. I have to 
tell you, Mr. Kummant, they are first-class. I mean, we have a 
wonderful workforce, but what do you think of the new labor 
contracts now?
    Mr. Wytkind. Well, I would defer to Mr. Dodd, who actually 
was involved in that bargaining, but these agreements present 
an historic opportunity to move this company and its employees 
forward. But that is only if the company is allowed to--excuse 
me, is given the investment, the resources it needs to pay its 
obligation to employees. I have testified more than a dozen 
times up in this Committee on Amtrak, and I have seen, one time 
after another, that every year the employees are unfortunately 
an afterthought because ``we can't afford wage increase,'' and 
that went on for eight years.
    We now have historic agreements. You now have, hopefully, a 
historic funding bill that will become law. Hopefully, the 
appropriators will work with the authorizers to actually fund 
the entire program. And it is my sincere hope that Amtrak will 
begin to, as it goes forward, to budget accordingly to deal 
with this employee cost, and not ask employees to go years and 
years at a time without wage increases we saw for almost an 
entire decade.
    Ms. Brown of Florida. Mr. Dodd?
    Mr. Dodd. It is a complex question, but, yes, what do we 
think of the current agreement? Obviously, taking eight years 
to resolve it is inexcusable, and that created a great deal of 
harm to the workers and their families. The agreements 
themselves I think we can characterize as what Amtrak workers 
could justly say they were entitled to receive, because they 
were patterned after the freight agreements, which has 
patterned the Amtrak agreements since Amtrak began. But the 
problem with the freight agreement is, if you were making $1.00 
an hour when those agreements began, in 1999, if you subtract 
inflation, health care, cost sharing, and increase in 
prescription drugs and whatnot that the current contracts 
provide, you are still making $1.00 an hour eight years later, 
and even though your own productivity has substantially 
increased. So those agreements are not a true reflection of the 
value that the workers have produced, although they are a 
reflection of what was available to us to negotiate at the time 
and what we were entitled to receive.
    I hope that is an answer to your question.
    Ms. Brown of Florida. Has anyone received any of the checks 
yet? When I spoke with them Monday, they had not.
    Mr. Dodd. Yes, they have. They have received 40 percent of 
the back pay and the wage increases have gone into effect and 
there is an additional 60 percent that is oweable a year from 
March 19th or March 10th.
    Ms. Brown of Florida. So as of today they have received 
checks?
    Mr. Dodd. Yes, they have.
    Ms. Brown of Florida. Okay.
    Mr. Dodd. And we appreciate that every much.
    Ms. Brown of Florida. Okay. Well, let me just point out 
that hopefully, as we move forward, we will move forward 
together. I mean, we have had a problem in that we had a budget 
that zeroed out all of Amtrak.
    Mr. Dodd. Yes.
    Ms. Brown of Florida. Shut it down. So all we could do was 
try to hold on until we could move forward, and I hope we keep 
that in mind as we--this is not a political statement, but as 
we move forward, we need to make sure that the Members of 
Congress and candidates all support.
    Mr. Dodd. We consider you and Chairman Oberstar to be great 
friends of the Amtrak worker, and we really appreciate the 
support and the solidarity you showed with us through that very 
difficult period.
    Mr. Wytkind. Madam Chair, one other point that needs to be 
made, if I might, is the 60 percent that is left to pay isn't 
due until the spring of 2009. However, we have been pushing 
very hard to make sure that that obligation is adequately 
funded in appropriations going forward. This authorization, if 
and when it becomes law, will still require an appropriation in 
the next fiscal year, and that pay day comes due in spring of 
2009, and I am hoping Congress satisfies that obligation as 
quickly as possible so that we do not have the situation that, 
come spring of 2009, as you know, under those collective 
bargaining agreements, the right to self-help is restored for 
both the employees and management.
    Ms. Brown of Florida. Mr. Kummant, you want to respond to 
that?
    Mr. Kummant. Oh, I don't have any disagreement with that. 
In fact, at the end of this year, anything we can find to apply 
toward that, we will. Right now, basically, our increased 
ridership and the revenue we are generating for that is 
basically paying for fuel. A year ago we spent $123 million in 
diesel; this year we may end up spending about 215. But there 
may be 20, $25 million in cash that we can apply to that. I 
know there are some opportunities with efficiency grant money, 
if that can be basically re-legislated. So there is some of 
that that I think can be found, but there is still a pretty 
good chunk that is certainly an issue.
    Ms. Brown of Florida. Thank you.
    Mr. Shuster.
    Mr. Shuster. Thank you. I see the Chairman has left. I just 
wanted to thank him again and commend him for putting some of 
these provisions in here, the RFP and the non-service and the 
poor performing lines take a different look at it. I think he 
points out the importance of allowing it to play out, allowing 
the RFP, which, Mr. Corbett, you brought about talking about 
the financials, the funding levels, things like that. That is 
what the RFP, I believe, does, it will flush all that out. 
Companies will look and they will put the numbers down, real 
numbers, if they are interested in making the investment or in 
getting involved. So I think that is an important reason to 
have the RFP in there. Let us take a look at it and either say, 
oh, it makes sense or maybe it doesn't. But I think that is the 
importance of putting these types of provisions in this bill.
    Also, I would like to point out we have 100 years of 
experience in passenger rail service which was a success, and 
it was done by private companies up until the 1950s, if I am 
not mistaken, or thereabouts. That is when passenger rail 
started to lose money, so 100 years experience versus 27 years 
of experience of under-funding it and the Government trying to 
operate this. So from the experience we have, I think that it 
is at least worth taking a look at.
    I would like to question Mr. Secretary, on the high-speed 
rail initiative, nationwide, what do you figure the cost of 
that is going to be? And then also specifically on the Midwest 
high-speed rail, which I would imagine you have even deeper 
knowledge of.
    Mr. Busalacchi. Well, I think you have to differentiate. A 
lot of times, in this Country, when we talk about high-speed 
rail, we look over to Europe and we see what is going on in 
Spain and France and things like that, 200, 250 miles an hour; 
and I really don't think that is what we are talking about in 
this Country. I mean, in this Country, at least the way I look 
at it, I think we need to get out of the gate here, and if we 
can get 110 mile an hour service and move in these corridors, I 
think that is really where we need to go. That is why I am 
always so very cautious when we start talking about high-speed 
versus what we are doing now. High-speed rail, based on what 
they are doing in Europe, costs about $30 million a mile, maybe 
even more. I think the type of rail improvement that we are 
talking about here would be about $1 million to $1.5 million a 
mile. So that is the difference, and that is why sometimes, Mr. 
Shuster, I really get concerned when we talk about high-speed 
versus this integrated system that we are talking about.
    I believe very strongly that we need an integrated system 
first. California has got a great plan for really authentic 
high-speed rail. I think Florida does as well. But I think, for 
now, what we need to focus on with the kinds of dollars that we 
are talking about is getting this integrated system across the 
Country going.
    Mr. Shuster. And I agree with you when I talk about high-
speed. The Keystone Corridor, which runs from Harrisburg to 
Philadelphia, I have used it. In fact, I don't drive to 
Philadelphia. I live in the western part of the State. When I 
go to Philadelphia, I drive to Harrisburg, get on the train and 
take the train downtown, because it is so much easier and I am 
more productive. I think probably you are right, that should be 
the model. In fact, this weekend I am going to Philadelphia, so 
I will take the train to Philadelphia, then the train back to 
Harrisburg, and then drive my car, because in my part of 
Pennsylvania I don't have many options besides the automobile.
    And I think, talking about that, Mr. Kummant, can you talk 
a little bit about--because I think that is really a model for 
what we need to do around the Country.
    Mr. Kummant. That is right, and I think we can also do that 
in non-electrified systems to start with, because the 
electrification can be so expensive. We have talked about 
Detroit to Chicago. I think St. Louis to Chicago is also a 
wonderful example of a rail bed that is set up really well 
where we could do that.
    I also want to point out that if you look at the German 
population overall, in all the passenger ridership in passenger 
rail, only about 20 percent of that population is riding on 
high-speed. There is still a whole base population who, in 
their daily lives, travel at conventional speeds. And I would 
argue there is an awful lot, obviously, we can do there.
    And, again, we mentioned southbound from D.C. I think are 
large opportunities where probably electrification would start 
making sense earlier on because of the connection with the 
Northeast Corridor and the population density. So there is a 
lot of opportunity out there.
    Mr. Shuster. And we had a discussion the other day, 20 
percent increase or 19 percent increase in ridership in the 
Keystone Corridor?
    Mr. Kummant. That is right, annual riders. And, again, 
there you see both the speed and the frequency, the same sort 
of tipping point we have seen on the Hiawathas with more 
frequency.
    Mr. Shuster. And the only way to make the frequency 
affordable is ridership.
    Mr. Kummant. That is right. I mean, it is kind of a 
flywheel that has to start spinning. You have to lay the bet, 
in a sense, put the frequency out there. But every time we have 
done that--you see it in the California Capitol Corridor as 
well--you really see the ridership pick up.
    Mr. Shuster. What do you anticipate the ridership, has it 
peaked? I mean, I imagine the increase is going to continue, 
but that 20 percent jump, are you going to see 20 percent every 
couple years?
    Mr. Kummant. Well, I think we will see it stabilizing a 
little bit, but I still think it will be I double digits for a 
while. What we see in the Northeast Corridor right now, our 
Acela product is nearing sold-out conditions, so we will start 
seeing year-over-year single digit increases there only because 
we don't have more seats. But we will continue seeing, I 
believe, double digits in the Regional product.
    Mr. Shuster. How about employment on that line?
    Mr. Kummant. Yes, that will depend on if we can find 
somewhere to drive frequency. So I think until we start driving 
frequency in other corridors and new corridors, that is what 
really will drive employment.
    Mr. Shuster. Thank you very much.
    Ms. Brown of Florida. In closing, I participated in the 
National Train Day and I am encouraging other Members to 
continue throughout the year this spring to do likewise. And I 
understand we had something like 60 activities throughout the 
system, and I rode the train from Jacksonville to Deland 
through Palatka, and I also did the Auto Train yesterday. There 
were 500 people there and 500 people coming in, and I talked 
with the town about doing more as far as they have been doing 
this in Sanford for 25 years, so it is really an economic 
development tool if they take advantage of it.
    In some of the places we went through, like Palatka, they 
don't have an agent there. We cut down a great deal, and those 
stations, have we looked at--and not for you to answer now, 
unless you want to make some comments--what do we need to do to 
beef up those individual stations? Because I think we could 
have more ridership when you actually have a person physically 
there. It is a beautiful station, and the train stops and you 
jump on. It would be much better if we had at least an 
attendant there. And I think this is true throughout the 
system, because we have had to dumb-down so much the system.
    Mr. Kummant. In the end, it is all about operating dollars 
and capital dollars. One of the agonizing capital decisions we 
always make is we would love to put so much more capital into 
the stations, but we are always saying, gosh, you have to put 
in the equipment and rail, and there is just none left over 
after that. And that goes to staffing as well. Obviously, we 
love to do that because that is often the face of Amtrak, what 
people see, and they see an old station that is unmanned, it 
doesn't look good. So that would clearly be a place that would, 
again, really drive ridership and perception.
    Mr. Busalacchi. Madam Chair, conversely, there are 
situations where you can have a station and you don't have a 
person there or people are able to purchase tickets from a 
kiosk to go to their destination. We put a station at the 
Mitchell Field airport in Milwaukee. I think there are only 
four cities that have a station at an airport. It has exceeded 
our expectations. We don't have a person there selling tickets. 
We have a parking lot, we have machines, and people can 
purchase tickets from them, rather than driving into the city 
and then taking the train back south. They go there, park their 
car, buy their ticket, and go to Chicago or points south, and 
then come back.
    Ms. Brown of Florida. Do you all have a station there?
    Mr. Busalacchi. We have a station at Mitchell International 
Airport.
    Ms. Brown of Florida. I see.
    Mr. Busalacchi. But we don't have it staffed with people. 
We have machines and people are able to park so they don't have 
to go into downtown Milwaukee; they can just get on the train 
and go to Chicago or points south. That has worked out very 
well. I think the point is when you make it convenient and it 
is on time, people are going to ride it.
    Ms. Brown of Florida. I definitely think the key to making 
it work is not just how fast it will go, but the fact that it 
is reliable and it is on time and you can count on it. I mean, 
that is the key, and that is what the testimony has been.
    Mr. Busalacchi. No question. This station outside of 
Milwaukee has exceeded our expectation. That parking lot is 
full. People are constantly taking the trains. As Alex knows, 
the trains are full because it is convenient and it is on time.
    Ms. Brown of Florida. Your people may be a little bit more 
sophisticated than mine. Mine need an attendant.
    Anyone else have any other comments that they want to make, 
a minute? Any closing statements?
    You hear Mr. Carson, and you and I talked about it, Mr. 
Kummant. We need to think about what we need to do, because I 
asked the question, for example, if we are moving forward, we 
need additional trains. I mean, how can we continue to run 
Amtrak like a business? I have a facility in Jacksonville where 
we do work for the Navy, the Air Force, foreigners, whatever. 
We restore those planes. What would it take to put the largest 
maintenance facility in the Country? What would it take? I know 
that it is old, but our whole system is old. How do we update 
it? How do we give it a facelift? How do we do the things that 
we need to do to move it forward?
    Mr. Kummant. Well, again, the dilemma is it would take 
capital, and a lot of it. It is a over 100-year-old facility. 
If we had that capital, that is not the place we would put it 
anyway. So that is the dilemma. If you actually said here is an 
incremental 50 or $100 million, we have all kinds of other 
needs that need to be met.
    I also wanted to correct a couple of things. Those jobs are 
being moved to other locations, so it is not really an 
outsource kind of question. It is very similar to the process 
we have done with Albany and Los Angeles, as well. Let me also 
say those are very difficult decisions. They are great people. 
And, by the way, we still do our major wreck repair there. It 
takes a lot of talent and creativity to do that kind of work. 
So those are very difficult decisions and we don't take them 
lightly. I think we always have to keep the door open and see 
if there are ideas that can work.
    But the dilemma we are in is that we are starved for 
capital. If there is incremental capital, that would not make 
the list of where we have the most crucial capital needs. The 
notion of getting involved in freight railroad repair business 
kind of makes sense at a certain level. But when you dig down 
into it, there are so many different things you would have to 
do that, again, we just have to pick our spots very carefully 
where we put our effort. If we were a richer, broader 
organization, maybe it is something that would make the cut, 
but where we stand today, we just have so many other crushing 
needs.
    Ms. Brown of Florida. Well, I want you to kind of think 
through it, because I hear what you are saying, but I also know 
that when we look at insourcing, I mean, constantly on this 
Committee Mr. Mica has tried to get you to make a profit out of 
a hamburger, which doesn't make any sense to me, but in that 
facility, when you can do a job and walk away with $200,000 
plus, that is the kind of profit that we need to be looking at. 
I mean, what is a dollar or a hamburger? Those people need to 
be able to have their hamburger if they want to on that train. 
They need to be able to have services. But how can we really 
invest in a system to make Amtrak a money maker?
    Mr. Kummant. Well, we will keep working those issues. They 
are tough ones. Again, maintenance overall is a $500 million 
operational cost issue for us, so we work that very hard. We 
take those comments seriously and need to do anything 
innovative we can find.
    Ms. Brown of Florida. I surely hope you will take those 
things into consideration, Mr. Kummant.
    Mr. Shuster. Can I just make one closing comments? I just 
think this is a great opportunity for us to do something with 
Amtrak. I know the former Chairman, who was my father, told me 
that one of the great regrets he had was he wasn't able to do 
something with Amtrak, wasn't able to move legislation forward, 
and I think most people who know him know he was a pretty 
effective Chairman; and he couldn't. So we have an opportunity. 
We have a bipartisan agreement. It is going to take all of us. 
We are not going to get all we want. And if we move this thing 
forward--because I think it is critical that we do something 
now, and the number that I look at is the population of the 
United States. It took us 65 years to go from 200 million to 
300 million. It is going to take us 35 years to go from 300 to 
400 million. And when you look at the population, the density 
on the map, it doesn't all move to Arizona. The population 
density in the Northeast Corridor, in Chicago and Milwaukee, 
and all these high-speed corridors we have, that population 
gets denser, and this is an opportunity for us to look at 
everything and move forward.
    Also with the realistic outlook that there are people in 
politics that would like to just get rid of Amtrak, and we have 
a President that I disagree with on right now, and we may have 
another Republican president, and he may not agree with this. 
But if we have broad support within the community, within the 
Congress, we can move something forward, and, as I said, I 
think this is an opportunity to move forward.
    I might also add--I will probably get disagreement with 
this--maybe there will be a Republican majority some day down 
the road. And I an not one of those in my party that--obviously 
I support Amtrak and I do believe that transportation is part 
of the national agenda of the Government; it is in the 
Constitution and, heck, it is a Republican tradition. If you 
look back through history, Republicans have been leading on the 
fight to improve transportation.
    So I just think this is a historic opportunity for us to do 
something. I don't know if I will be here 35 years from now 
when we cross that 400 million threshold, but I would like to 
be able to say we have passenger rail service in this Country 
that is working well, it is effective, and there are great 
opportunities there for people.
    Thank you.
    Ms. Brown of Florida. Thank you. And let me just say that 
we all want to leave our mark on transportation. I have been in 
the area of transportation for 25 years and I have been on this 
Committee for 16 years, and I really think this is an 
opportunity to move forward not just with Amtrak, but with the 
entire multi-modal transportation and move our Country forward. 
So I want not thank the witnesses for their testimony and the 
Members for their questions. Again, the Members of this 
Subcommittee may have additional questions for the witnesses, 
and we will ask you to respond to them in writing.
    The hearing record will be held open for 14 days for 
Members wishing to make additional statements or for further 
questions.
    Unless there is further business, this Subcommittee is 
adjourned. Thank you.
    [Whereupon, at 1:02 p.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







</pre></body></html>
